Report No. D-2007-044       January 16, 2007




           FY 2005 DoD Purchases
         Made Through the Department
                of the Interior
  Additional Copies
  To obtain additional copies of this report, visit the Web site of the Department of
  Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
  Secondary Reports Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax
  (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Office of the Deputy
  Inspector General for Auditing at (703) 604-9142 (DSN 664-9142) or fax (703)
  604-8932. Ideas and requests can also be mailed to:

                       ODIG-AUD (ATTN: Audit Suggestions)
                       Department of Defense Inspector General
                         400 Army Navy Drive (Room 801)
                             Arlington, VA 22202-4704




Acronyms

BPA                   Blanket Purchase Agreement
CICA                  Competition in Contracting Act
CIFA                  Counterintelligence Field Activity
COR                   Contracting Officer’s Representative
DFARS                 Defense Federal Acquisition Regulation Supplement
DISA                  Defense Information Systems Agency
DITSCAP               Defense Information Technology Security Certification and
                         Accreditation Process
DOI                   Department of the Interior
FAR                   Federal Acquisition Regulation
FMR                   Financial Management Regulation
FPDS-NG               Federal Procurement Data System-Next Generation
GAO                   Government Accountability Office
GSA                   General Services Administration
IG                    Inspector General
JITC                  Joint Interoperability Test Command
MIPR                  Military Interdepartmental Purchase Request
NAVSEA                Naval Sea Systems Command
NCR                   National Capital Region
O&M                   Operation and Maintenance
OMC                   Open Market Corridor
QASP                  Quality Assurance Surveillance Plan
RDT&E                 Research, Development, Test, and Evaluation
SBA                   Small Business Administration
DISTRIBUTION:

UNDER SECRETARY OF DEFENSE FOR ACQUISITION, TECHNOLOGY,
 AND LOGISTICS
UNDER SECRETARY OF DEFENSE (COMPTROLLER)/CHIEF FINANCIAL
 OFFICER
UNDER SECRETARY OF DEFENSE FOR INTELLIGENCE
ASSISTANT SECRETARY OF THE AIR FORCE (FINANCIAL MANAGEMENT
 AND COMPTROLLER)
DIRECTOR, DEFENSE INFORMATION SYSTEMS AGENCY
DIRECTOR, COUNTERINTELLIGENCE FIELD ACTIVITY
NAVAL INSPECTOR GENERAL
AUDITOR GENERAL, DEPARTMENT OF THE ARMY




                              2
                Department of Defense Office of Inspector General
Report No. D-2007-044                                                   January 16, 2007
   (Project No. D2005-D000CF-0276.000)

                  FY 2005 DoD Purchases Made Through the
                         Department of the Interior

                                 Executive Summary

Who Should Read This Report and Why? DoD contracting officials, program
managers, and financial managers should read this report because it discusses contracting
and funding issues related to DoD procurements made through an outside agency. The
audit identified 22 potential violations of appropriation laws.

Background. This report is one of several reports on DoD purchases made through non-
DoD agencies. We performed this audit as required by section 811, “Inspector General
Reviews and Determinations,” of Public Law 109-163, “National Defense Authorization
Act for Fiscal Year 2006.” We conducted this audit jointly with the Department of the
Interior (DOI) Inspector General. The audit focused on whether purchases of goods and
services made by DOI on behalf of DoD were made in accordance with applicable laws
and regulations. Specifically, we examined the policies, procedures, and internal controls
to determine whether DoD had a legitimate need to use DOI, whether DoD clearly
defined requirements, whether DOI and DoD properly used and tracked funds, and
whether DOI complied with Defense procurement requirements.

The audit focused on two DOI contracting centers that procure goods and services for
DoD:

   •   GovWorks, located in Herndon, Virginia, which is a franchise fund authorized by
       the Government Management Reform Act; and

   •   Southwest Acquisition Branch, National Business Center, a working capital fund
       located at Fort Huachuca, Arizona.

In FY 2005, GovWorks and the Southwest Acquisition Branch procured goods and
services worth $1.66 billion for DoD.

Results. Both DoD and DOI did not comply with laws and regulations. Specifically,
DoD and DOI had the following problems.

   •   DoD used DOI contracting officials who did not adequately document and
       support that the prices paid were fair and reasonable. Multiple inadequacies
       occurred in the areas of sufficient support for decisions, technical reviews, legal
       views, Government cost estimates, and Government surveillance. Also,
       competition was not usually obtained. Therefore, DoD has no assurance that it is
       obtaining best value for its purchases. Acquisition Executives for the Army,
       Navy, Air Force, and Defense agencies should make program and contracting
       offices aware of recurring deficiencies in the development of independent
       Government cost estimates, technical evaluations, and price negotiation
       memorandums, and implement an enforcement program that ensures those
       deficiencies do not reoccur (finding A).

   •   DoD customers permitted GovWorks to retain and use funds that had expired.
       Violation of the bona fide needs rule and other financial rules resulted in
       22 potential violations of the Antideficiency Act. Additionally, we identified
       about $393 million in potentially expired appropriations that were still on the
       books at GovWorks and being used to purchase goods and services for DoD. The
       Under Secretary of Defense (Comptroller)/Chief Financial Officer should review
       the funds and require all expired funds to be deobligated and returned to the
       treasury (finding B).

   •   The Southwest Acquisition Branch and the Naval Postgraduate School
       implemented an Internet-based procurement system, the Open Market Corridor,
       before obtaining security accreditation, reviewing internal controls, performing a
       legal review, or obtaining agency head approval. Further, the Southwest
       Acquisition Branch contracting officer granted contract-ordering authority to a
       DoD employee who issued $135 million in contract awards without having a
       contracting officer warrant. The Under Secretary of Defense for Acquisition,
       Technology, and Logistics should terminate DoD use of the Open Market
       Corridor (finding C).

   •   The Counterintelligence Field Activity did not follow the required procedures for
       obtaining leased office space in the National Capital Region. The
       Counterintelligence Field Activity, through GovWorks, obtained a 10-year,
       $100 million lease that violates a myriad of laws including potential violations of
       the Antideficiency Act. The contracting process also circumvented the required
       congressional review for leases of this size. The Deputy Under Secretary of
       Defense for Intelligence should notify the General Services Administration and
       various congressional committees of the violations and form a planning
       committee to explore the best way to remedy the problems. In addition, the
       Counterintelligence Field Activity and its co-tenants should halt payment on the
       lease to avoid further potential violations of the Antideficiency Act. The lease
       may have cost the Counterintelligence Field Activity up to $2.7 million annually
       more than if leased through the General Services Administration (finding D).
   •   The Southwest Acquisition Branch contracting officers improperly delegated
       many of their responsibilities to the contracting officer’s representative for
       support contracts for the Joint Interoperability Test Command. As a result, no
       one determined price reasonableness or provided fair opportunity for purchases of
       goods and services under the multiple-award contracts (finding E).

The DoD internal controls over management of appropriated funds were not adequate.
We identified a material internal control weakness pertaining to DoD management of
appropriated funds. We believe that some purchases made by the Counterintelligence
Field Activity may have intentionally violated the Antideficiency Act. Therefore, we
referred these matters to the Deputy Inspector General for Investigations for further
review.

Based on the severity of the problems at the Southwest Acquisition Branch, we
recommend the Under Secretary of Defense for Acquisition, Technology, and Logistics
should not initiate new DoD contracts or orders at the Southwest Acquisition Branch
until DOI establishes acquisition controls to resolve those problems. The Acquisition

                                            ii
Executives for the Army, Navy, Air Force, and Defense agencies also need to make
program and contracting offices aware of any recurring deficiencies in the development
of independent Government cost estimates, technical evaluations, and price negotiation
memorandums, and implement an enforcement program that ensures those deficiencies
do not reoccur. Other recommendations to the Under Secretary of Defense for
Acquisition, Technology, and Logistics that will correct deficiencies identified in this
report are contained in DoD Inspector General Report No. D-2007-007, “FY 2005 DoD
Purchases Made Through the General Services Administration,” October 30, 2006.
Recommendations to the Under Secretary of Defense (Comptroller)/Chief Financial
Officer are included in DoD Inspector General Report No. D-2007-042, “Potential
Antideficiency Act Violations on DoD Purchases Made Through Non-DoD Agencies,”
January 2, 2007. Recommendations to DOI are in DOI Inspector General Report No. X-
IN-MOA-0018-2005, “Audit of FY2005 Department of the Interior Purchases Made on
Behalf of the Department of Defense,” January 9, 2007.

Management Comments and Audit Response. The Office of the Under Secretary of
Defense for Acquisition, Technology, and Logistics; the Under Secretary of Defense
(Comptroller)/Chief Financial Officer; the Deputy Under Secretary of Defense for
Intelligence; the Acquisition Executives for the Army, Navy, and Air Force; the Director,
Defense Information Systems Agency; and the Acting Director, Counterintelligence Field
Activity provided comments to our draft report.

The Director of Defense Procurement and Acquisition Policy (Director of Defense
Procurement), commenting on behalf of the Office of the Under Secretary of Defense for
Acquisition, Technology, and Logistics, concurred with the recommendations. The
Director of Defense Procurement stated that DOI provided information indicating that
DOI has established more vigorous operational practices and procedures to ensure
actions taken on behalf of DoD are compliant with statute, policy, and regulation. The
Director requested that we ascertain the results of these corrective actions during our next
review. The Director of Defense Procurement also stated that because the most recent
option to extend the contract for the Open Market Corridor was not exercised,
termination of the use of the Open Market Corridor System was not necessary.

The Acquisition Executives for the Army, Navy, and Air Force concurred with the
recommendations.
The Under Secretary of Defense (Comptroller)/Chief Financial Officer concurred with
the recommendations. The Acting Deputy Chief Financial Officer identified new policy
published October 16, 2006, that provides guidance on the need for specificity when
preparing purchase orders and funding documents. The Comptroller also directed all
Components to review interagency agreements and coordinate the return of expired funds
with the outside agency. As of January 2007, the DoD Component reviews have resulted
in the deobligation of $451.3 million for DoD. Additionally, the Acting Deputy Chief
Financial Officer stated that they were working with DOI to identify and facilitate the
return of expired or excess funding.

The Acting Director of the Counterintelligence Field Activity neither concurred nor
nonconcurred with the recommendations. The Acting Director questioned whether the
statutory restrictions were applicable to the Counterintelligence Field Activity. We
maintain that the CIFA contract is a lease and not a service contract as illustrated by the
contract language and by the parties involved in the lease. Considering this lease to be a
service contract could allow any DoD activity to obtain leased space without going
through the General Services Administration and cause numerous violations of law in
each instance.

                                             iii
The Director for Procurement, Defense Information Technology Contracting
Organization concurred with the recommendations. The Director stated that Defense
Information Systems Agency head of the contracting activity is creating a contracting
branch at the Joint Interoperability Test Command at Fort Huachuca. The Director also
stated that a September 2005 review by the Defense Information Systems Agency
Inspector General also concluded that too much authority had been delegated by the DOI
contracting officer to the Joint Interoperability Test Command contracting officer’s
representative.

We request that the Naval Criminal Investigative Service and the Air Force Office of
Special Investigations provide comments on the final report by February 16, 2007. See
the Findings section of the report for a discussion of the management comments and the
Management Comments section of the report for the complete text of the comments.




                                          iv
Table of Contents

Executive Summary                                                                    i

Background                                                                           1

Objectives                                                                           2

Review of Internal Controls                                                          3

Findings
     A.    Contracting Problems                                                     4
     B.    Funding Issues Relating to the Department of the Interior Contracting   26
     C.    Open Market Corridor                                                    40
     D.    Contract for Leased Office Space                                        49
     E.    Joint Interoperability Test Command                                     66

Appendixes
     A.    Scope and Methodology                                                    72
     B.    Prior Coverage                                                           74
     C.    Department of the Interior Contract Actions Reviewed                     77
     D.    GovWorks Contracting Problems                                            84
     E.    Southwest Acquisition Branch Contracting Problems                        87
     F.    Potential Antideficiency Act Violations                                  89
     G.    Report Distribution                                                     100

Management Comments
     Office of the Under Secretary of Defense for Acquisition, Technology,
           and Logistics                                                           103
     Office of the Under Secretary of Defense (Comptroller)/Chief Financial
           Officer                                                                 107
     Office of the Under Secretary of Defense for Intelligence                     109
     Department of the Navy                                                        110
     Department of the Air Force                                                   122
     Defense Information Systems Agency                                            123
     Counterintelligence Field Activity                                            126
Background
    We performed this audit to meet requirements of section 811, Public Law
    109-163, “National Defense Authorization Act for Fiscal Year 2006,” January 6,
    2006. Section 811 states:

    “(a) INSPECTOR GENERAL REVIEWS AND DETERMINATIONS.—

           (1) IN GENERAL.—For each covered non-defense agency, the Inspector
           General of the Department of Defense and the Inspector General of such
           non-defense agency shall, not later than March 15, 2006, jointly—

                  (A) review—

                         (i) the procurement policies, procedures, and internal
                  controls of such non-defense agency that are applicable to the
                  procurement of property and services on behalf of the Department
                  by such non-defense agency; and

                          (ii) the administration of those policies, procedures, and
                  internal controls; and

                  (B) determine in writing whether—

                         (i) such non-defense agency is compliant with defense
                  procurement requirements;

                          (ii) such non-defense agency is not compliant with defense
                  procurement requirements, but has a program or initiative to
                  significantly improve compliance with defense procurement
                  requirements; or

                          (iii) neither of the conclusions stated in clauses (i) and (ii)
                  is correct in the case of such non-defense agency.”

    This report addresses the Department of the Interior (DOI), one of the non-
    defense agencies we are required to audit under section 811. Separate audit
    reports will address DoD purchases made through other non-defense agencies:
    the Department of the Treasury, the General Services Administration (GSA), and
    the National Aeronautics and Space Administration. To comply with the
    FY 2006 Defense Authorization Act, the DoD Inspector General (IG) and the
    DOI IG reviewed contract actions made by DOI on behalf of DoD. We reviewed
    contracts at two DOI contracting activities: GovWorks and the Southwest
    Acquisition Branch.

    GovWorks. GovWorks is a franchise fund in Herndon, Virginia, authorized by
    the Government Management Reform Act of 1994 (Public Law 103-356). The
    Interior Franchise Fund was established by Public Law 104-208 and the fund life
    was extended through September 2006 by Public Law 109-115. In October 2005,
    DOI transferred GovWorks, which was part of the DOI Minerals Management
    Service, to the DOI National Business Center.



                                         1
    Southwest Acquisition Branch. The Southwest Acquisition Branch, National
    Business Center, is part of a working capital fund authorized by section 1467,
    title 43, United States Code (43 U.S.C. 1467). The Southwest Acquisition Branch
    is located at Fort Huachuca, Arizona. The contracting center was initially known
    as the Directorate of Contracting Mission Team and was operated by the U.S.
    Army Intelligence Center and Fort Huachuca. The contracting center was
    transferred from DoD to DOI on January 14, 2001. Although the Southwest
    Acquisition Branch is a working capital fund and may choose to operate under
    working capital rules, it has elected to operate under the Economy Act.
    Therefore, Government customers to the Southwest Acquisition Branch must
    follow special rules pertaining to the Economy Act provided in the Federal
    Acquisition Regulation (FAR) Subpart 17.5.

    Interagency Purchases Through DOI. During FY 2005, DOI awarded 16,017
    purchases totaling $2.6 billion for other governmental activities. Of those
    purchases, GovWorks and the Southwest Acquisition Branch on behalf of DoD
    awarded 8,784 contract actions (purchases) valued at $1.66 billion. Of the
    8,784 contract actions, 49 were awarded from existing DoD contracts. Contract
    actions awarded on behalf of DoD represent about 55 percent of the purchases
    awarded by DOI on behalf of others. Table 1 shows FY 2005 interagency
    purchases made through DOI.

             Table 1. FY 2005 Interagency Purchases Made Through DOI

        Contracting        FY 2005           FY 2005      FY 2005 DoD         FY 2005
          Center            DoD               Total          Dollars       Total Dollars
                          Purchases         Purchases      (in billions)    (in billions)

      Southwest           2,034 (46%)             4,443    $0.731 (60%)          $ 1.210
      Acquisition
      Branch

      GovWorks            6,750 (58%)            11,574     0.929 (67%)            1.377

        Total             8,784 (55%)            16,017    $1.660 (64%)          $ 2.587


    We reviewed 49 DOI contracts actions awarded during FY 2005 for purchases
    valued at $277.1 million. The 49 contracts from which the contract actions were
    awarded had an estimated value of $2.9 billion. Of the 49 contracts reviewed, 25
    were for products and 24 were for services. See Appendix C for a list of contracts
    reviewed. For each contract reviewed, we reviewed selected issues including
    competition involving only one offer, price reasonableness decisions, reviews of
    contractor proposals, Government cost estimates, legal reviews, and Government
    surveillance. We reviewed Government cost estimates, reviews of contractor
    proposals, and Government surveillance only for contracts for services.


Objectives
    Our overall audit objective was to review DoD procedures for purchases through
    DOI. Specifically, we examined the policies, procedures, and internal controls to
    determine whether DoD had a legitimate need to use DOI, whether DoD clearly


                                        2
     defined requirements, whether DOI and DoD properly used and tracked funds,
     and whether DOI complied with Defense procurement requirements. We also
     examined how DOI accepted and fulfilled the DoD requirements. See
     Appendix A for a discussion of the scope and methodology. See Appendix B for
     prior coverage related to the objectives.


Review of Internal Controls
     We identified systemic material internal control weaknesses as defined by DoD
     Instruction 5010.40, “Managers’ Internal Control (MIC) Program Procedures,”
     January 4, 2006. Defense Components did not always use the proper
     appropriations and sometimes used appropriated funds that had expired to procure
     goods and services through DOI. These practices potentially violated the
     Antideficiency Act. Additionally, Defense Components did not perform recurring
     reviews of their obligations, as required by the Defense Financial Management
     Regulation, to determine whether the funds could be deobligated. Finally,
     Defense Components did not always define requirements with sufficient
     specificity to meet legal requirements for forming a valid obligation. This
     practice permitted the Military Interdepartmental Purchase Request to be used
     like a deposit slip for a bank rather than a well-defined list of supplies and
     services to be procured. We believe that failure to perform the required
     obligation reviews and the lack of specificity when defining requirements were
     contributing factors to the potential funding violations. We discuss these
     problems in detail in finding B. Implementing Recommendation B. should
     correct these control weaknesses.




                                        3
                    A. Contracting Problems
                    In FY 2005, GovWorks and Southwest Acquisition Branch contracting
                    offices awarded DoD purchases valued at $1.66 billion that could have
                    been awarded by DoD contracting offices. These purchases included
                    $592 million that GovWorks awarded from GSA Federal supply
                    schedules, and $5 million from existing DoD contracts. For the 49
                    contracts reviewed, DOI contracting officials awarded contracts and
                    orders for DoD purchases in a sole-source environment, especially for the
                    purchase of services. Also, contracting officials did not adequately
                    document and support that the prices paid were fair and reasonable. Of
                    the 49 contracts reviewed, we identified the following problems:

                             •    competition involving only one offer (27/491 contracts or
                                  55 percent),

                             •    unsupported price reasonableness decisions (25/49 contracts or
                                  51 percent),

                             •    inadequate technical review of contractor proposals (19/242 or
                                  79 percent),

                             •    inadequate Government cost estimates (22/24 or 92 percent),

                             •    inadequate legal review (18/49 or 37 percent), and

                             •    inadequate Government surveillance (23/24 or 96 percent).

                    Contracting officials used the competition regulations to justify their
                    award decisions after receiving only one offer instead of fostering a
                    competitive environment involving head-to-head competition. In three
                    instances, contracting officials violated the competition regulations. In
                    addition, contracting officials relied on incomplete and cursory reviews of
                    contractor-proposed costs to determine that prices paid were fair and
                    reasonable. Accordingly, DoD has no assurance that it is obtaining best
                    value for purchases awarded by contracting officials.


Contracting Criteria
           Public Law 98-369, “The Competition in Contracting Act of 1984.” This act
           generally provides that full and open competition should be used when soliciting
           offers and awarding Government contracts. Contracting through the Section 8(a)
           Program is one of the statutory exceptions to the rule requiring full and open
           competition of procurements.

           Public Law 100-656, “The Business Opportunity Development Reform Act of
           1988.” This act states that an acquisition offered under the Section 8(a) Program
1
    49 reviewed, including both products and services.
2
    24 of the 49 contracts reviewed were for services.



                                                         4
to the Small Business Administration (SBA) must be awarded on the basis of
competition if the anticipated award price of the contract (including options)
exceeds $3 million (for service contracts), and if a reasonable expectation exists
that at least two Section 8(a) firms will submit offers at a fair market price.

FAR 19.805, “Competitive 8(a).” This section implements Public Law 100-656.
Neither Public Law 100-656 nor the FAR excludes indefinite-delivery,
indefinite-quantity contracts from the $3 million threshold. Competition of orders
below the competitive threshold is possible with SBA approval. FAR 19.805 also
permits contracts valued at more than the $3 million competitive threshold to be
awarded on a sole-source basis if the SBA accepts the requirement on behalf of a
business owned by an Indian tribe or an Alaskan Native Corporation.

FAR 16.504(c), “Multiple Award Preference.” This section requires that
contracting officers must, to the maximum extent practicable, give preference to
making multiple awards of indefinite-quantity contracts under a single solicitation
for the same or similar supplies or services to two or more sources. FAR 16.504
also requires that contracting officers document the decision whether or not to use
multiple awards in the acquisition plan or contract file. For contracts for advisory
and assistance services that exceed $10 million and 3 years, contracting officers
are required to use multiple-award contracts.

FAR Part 10, “Market Research.” This section requires that agencies use the
results of market research to determine the sources capable of satisfying the
agency’s requirements.

FAR 7.105, “Content of Written Acquisition Plans.” This section states that
acquisition plans should indicate the prospective sources of supplies and services
that can meet the DoD requirement.

FAR 15.404-1, “Proposal Analysis Techniques.” This section states that the
contracting officer is responsible for evaluating the reasonableness of the offered
prices.

FAR 15.402, “Pricing Policy.” This section states that contracting officers must
purchase supplies and services from responsible sources at fair and reasonable
prices.

FAR 15.406-3, “Documenting the Negotiation.” This section states that the
contracting officer must document in the contract file the principal elements of
the negotiation agreement including documentation of fair and reasonable pricing.

FAR 13.106-3, “Award and Documentation.” This section states that before
awarding contracts, the contracting officer must determine that the proposed price
is fair and reasonable.

FAR 17.104, “General.” This section states that multiyear contracting is a
special contracting method to acquire known requirements in quantities and total
cost not over planned requirements for up to 5 years unless otherwise authorized
by statute, even though the total funds ultimately to be obligated may not be
available at the time of contract award. This method may be used in sealed
bidding or contracting by negotiation.



                                     5
    The National Defense Authorization Act for Fiscal Year 2002, Section 803,
    (Section 803). Section 803 places more stringent competition requirements for
    contracts for services awarded using Federal supply schedules. It requires
    contracting officials to compete Federal supply schedules orders for purchases of
    services in excess of $100,000 or justify waivers of this requirement. Defense
    Federal Acquisition Regulation Supplement (DFARS) 208.404-70 implements
    Section 803.

    DFARS 208.404-70(d). This section states that a single or multiple blanket
    purchase agreement (BPA) may be established against Federal supply schedules if
    the contracting officer reviews established BPAs no less than annually to
    determine whether the BPA still represents the best value.


Market Research
    DoD requiring activities used DOI to purchase products and services normally
    purchased by DoD activities. These purchases included information technology
    hardware, software, and support services, as well as low-dollar purchases of
    military clothing and equipment. See Appendix C for a complete list of items
    purchased. DoD incurs additional costs when using DOI because it pays fees to
    DOI for its services. We reviewed whether DoD had a legitimate need to use
    DOI to make purchases of low-dollar military equipment, the use of DOI to
    purchase products and services from the GSA Federal supply schedules, and the
    use of DOI to purchase items from existing DoD contracts. In all of these
    situations, DoD should have been able to award contracts for these types of
    purchases, which would have been a better business decision.

    Low-Dollar Military Purchases. We reviewed 29 contracts awarded by
    GovWorks, including 13 contracts awarded for low-dollar purchases of military
    equipment. For 12 of these contracts, DoD paid GovWorks a 4-percent fee for its
    services. For one of these contracts, DoD paid GovWorks a 3-percent fee.
    Southwest Acquisition Branch contracting officials also awarded at least two
    low-dollar contracts for the purchases of military-related items under an
    indefinite-delivery, indefinite-quantity contract awarded to Networld Exchange,
    Inc. For those contracts, Networld collected a 2-percent fee from DoD requiring
    activities and then distributed 0.50 percent of the fee to the Naval Postgraduate
    School and 0.25 percent to the DOI National Business Center. See finding C for a
    detailed analysis of audit issues related to the Networld contract. Table 2 lists the
    13 GovWorks and 2 Southwest Acquisition Branch contracts awarded for the
    purchases of low-dollar military items for DoD requiring activities.




                                         6
              Table 2. Low-Dollar Purchases of Military Items

     DOI Contract              Purchase Description           Cost        DOI Fee
                                                                          (percent)

  GovWorks
  40385                Weapons Cleaning Kits                 $ 3,390.00          4
  43150                Men’s Explosive Handler’s Coveralls     7,650.00          4
  43270                Body Armor                             61,112.00          3
  40387                Waterproof Gloves                      10,170.00          4
  43280                Goggles and Balaclavas                  1,328.00          4
  42985                Waterproof Gloves                      13,038.00          4
  41907                Radio Pouches                           3,168.00          4
  42912                Body Armor                             71,137.60          4
  42981                Tactical Knee and Elbow Pads             604.55           4
  42925                Combat Helmets and Covers              19,740.00          4
  43329                Tactical Knee and Elbow Pads            1,158.60          4
  43349                Duffel Bags                             1,369.00          4
  42987                9-Millimeter Pistol Holsters            9,706.20          4


  Southwest
  Acquisition Branch
  NBCHD020037
  Order 1670           Body Armor                             15,052.00          2
  NBCHD020037
  Order 1596           Military Clothing                      65,120.26          2

DoD requiring activities should have contracted directly with the vendors for
these purchases because they were low-dollar purchases and of a type routinely
made within DoD. Furthermore, it is likely that DoD already has a contract in
place for items such as body armor, weapons cleaning kits, clothing, and
9-millimeter pistol holsters. If DoD had used existing DoD contracts, it would
have avoided DOI fees and could have put the money to better use.

Purchases From Federal Supply Schedules. GovWorks and Southwest
Acquisition Branch provided information showing that they awarded $1.66 billion
of purchases for DoD in FY 2005. This amount included GovWorks purchases of
$928,778,444.85 and Southwest Acquisition Branch purchases of
$730,924,804.28. GovWorks used GSA Federal supply schedules for at least
$550.3 million of its DoD purchases (58.1 percent), and Southwest Acquisition
Branch used GSA Federal supply schedules for at least $41.7 million
(5.7 percent) of its DoD purchases. For most of these awards, DoD paid
GovWorks a 4-percent fee ($22 million). DoD also paid GSA, through the
contractor, a 0.75-percent fee for the use of its Federal supply schedule. Had
DoD gone directly to GSA Federal supply schedules, it could have avoided the
$22.8 million of DOI fees. That money could have been used to increase the DoD
acquisition workforce or other DoD priority needs.


                                       7
For 19 of the 49 contracts we reviewed in detail, valued at $102 million,
GovWorks and Southwest Acquisition Branch contracting officials used GSA
Federal supply schedules to make purchases for DoD, including five GSA Federal
supply schedule blanket purchase agreements. The amount of time and effort
expended by contracting officials to award the Federal supply schedule orders
was minimal. The DoD contracting activities could have purchased the products
and services directly from the schedules via e-Buy. Had DoD requiring activities
performed market research, they would have also identified the Federal supply
schedule contracts that DOI used to purchase the items and services.

Purchases From Existing DoD Contracts. In FY 2005, GovWorks awarded
49 contract actions, valued at $5 million, from existing DoD contracts. Although
our sample did not include any of the 49 contract actions, we did evaluate four
contract actions, valued at $507,727.54. Three of the four orders issued were for
low-dollar amounts ranging from $22,000 to $29,000. The two DoD contracts
and four orders are shown in Table 3.

  Table 3. Existing DoD Contracts Used By DOI to Award DoD Purchases

   Contracts and Orders             Value            DoD Contracting and Requiring Activity
 DABL01-03-D-1009             $ 500,000,000.00     Army Contracting Agency
   Order 43000                      428,532.00     Army Civilian Personnel Regionalization
   Order 40379                        29,316.00    Army Command and Control Support Agency


 DAAB15-01-A-1005              BPA (No Value)      Army Contracting Agency
   Order 44214                        27,825.04    Deployment Process Modernization Office
   Order 41019                        22,054.50    Walter Reed Army Medical Center
 Order Total                       $507,727.54

DoD requiring activities provided various reasons for using GovWorks instead of
going directly to the DoD contracts. A contracting official at one DoD requiring
activity stated that its Army contracting office was responding very slowly to
other actions, especially those involving open market solicitations; the contracting
official was concerned that they would not be able to award a new contract before
the existing contract expired. A contracting official at another DoD requiring
activity stated that:
       We used DOI because they are able to expedite the contracting process.
       DOI supported CCSA’s [Command and Control Support Agency]
       ability to operate continuously through time sensitive equipment
       purchases in an environment when DoD contract specialists appeared
       to be overwhelmed with numerous actions.

A contracting official at another DoD requiring activity stated that it had stopped
using its DoD contracting office because the office did not have enough
contracting people to handle the requirements. Had contracting officials at DoD
requiring activities performed adequate market research, they should have been
able to identify the existing DoD contracts as DOI did. However, based on the
statements of contracting officials at the DoD requiring activities, they would not
have used DoD contracting offices even if they identified the existing DoD
contracts. Although DoD contracting offices may be overburdened with work,


                                         8
    paying DOI a fee to use DoD contracts does not make good business sense. A
    better solution would be to increase the staff or the numbers of DoD contracting
    offices. Figure 1 illustrates how the process worked.




             Figure 1. DOI Use of DoD Contracts for DoD Requirements


Competition Involving Only One Offer
    Of the 49 contracts reviewed, 27 contracts were awarded when only one offer was
    received. GovWorks and Southwest Acquisition Branch contracting officials
    used a variety of contracting approaches to award DoD purchases. These
    included awards to Section 8(a) contractors, the use of GSA BPAs and Federal
    supply schedule orders, multiple-award orders, and full and open competition
    awards. Regardless of the approach used, DOI contracting officials consistently
    awarded contracts in a sole-source environment after only obtaining one offer.
    Competition involving only one offer and price reasonableness problems occurred
    more for the purchases of services than for products at both GovWorks and
    Southwest Acquisition Branch. Price reasonableness problems for service
    contracts occurred because of the absence of detail in DoD reviews of
    contractor-proposed costs and independent Government cost estimates. Table 4
    shows the types of contracts DOI used, how many we reviewed, and the number
    of contracts that had only one offer.




                                        9
              Table 4. Contracts Awarded as a Result of One Offer

              Contract Type               Contracts Reviewed           Only One Offer
 Section 8(a) Awards                        9 (Including 2 Orders                          9
                                            Under One Contract)
 GSA Federal Supply Schedule                                  14                           6
 Orders
 GSA Federal Supply Schedule                                   5                           3
 BPAs
 Multiple-Award Orders                             Task Orders 4                Task Orders 2
 Open Market Purchases                                        12                           5
 Open Market Corridor Purchases                                5                           2
 Total                                                        49                          27

Section 8(a) Awards. No competition occurred for 9 of the 49 DOI contracts
reviewed because the contracts were awarded to Section 8(a) contractors. Public
Law 98-369, “The Competition in Contracting Act of 1984,” states that full and
open competition should be used when soliciting offers and awarding
Government contracts. Contracting through the Section 8(a) Program is one of
the statutory exceptions to the rule requiring full and open competition of
procurements.

Public Law 100-656, “The Business Opportunity Development Reform Act of
1988,” implemented under FAR 19.805, “Competitive 8(a),” states that an
acquisition offered under the Section 8(a) Program to the SBA must be awarded
on the basis of competition if the anticipated award price of the contract
(including options) exceeds $3 million (for service contracts), and if a reasonable
expectation exists that at least two Section 8(a) firms will submit offers at a fair
market price. FAR 19.805 permits contracts valued at more than $3 million to be
awarded on a sole-source basis if the SBA accepts the requirement on behalf of a
concern owned by an Indian tribe or an Alaskan Native corporation. Contracting
officials awarded four of the eight Section 8(a) contracts to Alaskan Native
corporations and one contract to a tribally-owned company. Neither Public Law
100-656 nor the FAR excludes indefinite-delivery, indefinite-quantity contracts
from the $3 million threshold. Competition of orders below the competitive
threshold is possible with SBA approval.

Southwest Acquisition Branch contracting officials awarded two Section 8(a)
contracts each valued at exactly $3 million. No competition occurred under these
contracts. Contracting officials justified their decision not to compete two of
these contracts because, according to the Small Business Act as implemented by
FAR Part 19, competition among Section 8(a) contractors does not have to occur
until the contract value exceeds $3 million. Documentation for one of these
contracts stated:
         This requirement is being issued as an 8(a) directed contract. In
         accordance with FAR 19.805-1, a sole source contract that does not
         exceed the 8(a) competitive threshold may be awarded to an 8(a)
         concern that has been accepted by the Small Business Administration.




                                         10
Shortly after award, the value of one of these contracts exceeded the $3 million
threshold. Southwest Acquisition Branch contracting officials awarded
contract NBCHD050038 on September 1, 2005, for $3 million. On September 2,
2005, Southwest Acquisition Branch contracting officials awarded task
order 0001, valued at $2,994,992.00. On September 30, 2005, they awarded task
order 0002, valued at $99,500.00.

Although Southwest Acquisition Branch contracting officials did not violate the
regulations, they could have competed those two contracts among Section 8(a)
companies. Table 5 lists the eight Section 8(a) contracts reviewed.

                         Table 5. Section 8(a) Awards

         Contract           Type of Company             Purchase           Value
                                                       Description       (millions)
 1435-04-03-RC-73024    Section 8(a) Alaskan       Building Lease            $ 1.6
                        Native Corporation
 1435-04-03-RC-70941    Section 8(a) Alaskan       Building Lease            100.0
                        Native Corporation
 NBCHD050016            Service-Disabled Veteran   Telecommunication            3.0
                        Business Enterprise        Equipment
 NBCHD020092            Section 8(a) Tribally-     Products, Services,       200.0
                        Owned Corporation          Studies, Systems
                                                   Development
 NBCHD010004            Section 8(a) Alaskan       Information               100.0
                        Native Corporation         Technology Systems
                                                   Engineering
                                                   Assistance
 NBCHC050072            Section 8(a)               Step-Enabled                 1.8
                                                   Software Toolset
 NBCHD050038            Section 8(a) Small         Computer Systems             3.0
                        Disadvantaged Hawaiian-    Design Services
                        Native-Owned
 NBCHD040033            Section 8(a) Alaskan       Hardware, Software,       200.0
                        Native Corporation         Technical Support
                                                   Services
 Total                                                                      $609.4

GSA Federal Supply Schedule Orders. The National Defense Authorization
Act for Fiscal Year 2002, Section 803, places more stringent competition
requirements on contracts for services awarded using Federal supply schedules. It
requires contracting officials to compete Federal supply schedule orders for
purchases of services in excess of $100,000 or justify waivers of this requirement.
DFARS 208.404-70 implements Section 803.

Of the 49 contracts reviewed, 14 were GSA Federal supply schedule orders,
including 11 orders issued by GovWorks and 3 orders issued by Southwest
Acquisition Branch. For 3 of the 11 orders, GovWorks obtained only one offer,
including one order for which GovWorks contracting officials did not comply
with Section 803 competition requirements. Southwest Acquisition Branch


                                       11
contracting officials obtained only one offer for each of the three GSA Federal
supply schedule orders they awarded, including two orders for which they did not
comply with Section 803 requirements. We questioned the following three
Federal supply schedule orders.

        Federal Supply Schedule Order 71705. On February 4, 2003,
GovWorks contracting officials awarded order 71705 for the purchase of
management support services. The value of the order was $608,663.28.
Modification 0005, dated December 22, 2004, added $640,242.48 to exercise
option year 2. GovWorks sent a request for quote to three GSA schedule holders
and received only one proposal. According to DFARS 208.404-70(c), for the
acquisition of services valued more than $100,000, if three offers are not received,
contracting officials should have determined and stated in writing that no
additional contractors could be identified despite reasonable efforts to fulfill the
work requirements. The contract file did not contain documentation clearly
explaining the efforts to obtain offers from at least three contractors.

        Federal Supply Schedule Order NBCHF030277. On April 28, 2003,
contracting officials awarded order NBCHF030277 for the purchase of technical
support services. The value of the order was $2,005,925. Modification 0011,
dated September 2, 2005, added $132,983.99 of incremental funding to the
contract. Southwest Acquisition Branch awarded the order on a sole-source basis
citing FAR 16.505(b)(2)(ii) and 6.302-1, stating that only one awardee was
capable of providing the supplies or services required at the level of quality
required because the supplies or services ordered are unique or highly specialized.
Although DFARS 208.404-70(b) allows competition to be waived based on
FAR 16.505(b)(2)(ii), this exception does not seem to apply to this particular
purchase. In December 2005, DOI Southwest Acquisition Branch contracting
officials decided not to exercise a contract option and instead recompeted the
contract. We commend the contracting officials for recompeting the contract.

       Federal Supply Schedule Order NBCHF040500. On September 27,
2004, Southwest Acquisition Branch contracting officials awarded
order NBCHF040500, valued at $10,157,346, for the purchase of
performance-oriented training services for the U.S. Army Quartermaster Center
and School. Modification 0003, dated September 26, 2005, added $195,000 of
incremental funding to the contract. Contracting officials competed this purchase
by submitting the request for quote to contractors under the GSA Advantage
Logworld contract, a Federal supply schedule contract that helps Federal agencies
procure comprehensive logistics solutions to enhance or replace existing
operations. The contracting officer stated the following in a memorandum
regarding competition:
       Received statement of work on 24 Aug 2004 to submit proposal on
       GSA Advantage/Logworld Contract. RFQ [request for quote] 56454
       was submitted and only one contractor from the Logworld sent quote.
       The quote was transmitted to the client at US Army Quartermaster at
       Fort Lee, VA. Was evaluated and client suggested that [contractor]
       was evaluated and accepted to meet the Governments requirements.

According to DFARS 208.404-70(c), for the acquisition of services valued more
than $100,000, if three offers are not received, contracting officials should have
determined in writing that no additional contractors could be identified despite


                                       12
reasonable efforts to fulfill the work requirements. The documentation should
clearly explain the efforts to obtain offers from at least three contractors. The
contract file did not contain documentation explaining the efforts to obtain offers
from three contractors as required by DFARS 208.404-70(c).

GSA Federal Supply Schedule Blanket Purchase Agreements. Contracting
officials awarded 5 of the 49 contracts reviewed as GSA Federal supply schedule
BPAs. GovWorks awarded four of the BPAs and Southwest Acquisition Branch
awarded one BPA. For BPAs 1435-04-05-BP-41582 and 1435-04-05-BP-40699,
GovWorks contracting officials issued the request for quote through e-Buy, the
GSA electronic quote system. Contracting officials complied with the
competition regulations despite receiving only one offer because DFARS
208.404-70(C)(2) states that e-Buy is one medium for providing fair notice to all
contractors.

For BPAs 1435-04-04-BP-32178 and 1435-04-04-BP-32200, awarded in
October 2003, another GovWorks contracting official made two awards after
initially receiving three offers. In September 2005, the contracting official
decided not to issue any further work under these BPAs because having only two
companies on the BPAs would not satisfy future competition requirements. We
commend this contracting official for promoting a competitive environment.

We reviewed BPA NBCHA010033, awarded on June 4, 2001, as part of our
review of modification 0002 issued under order 0024 on December 17, 2004.
Competition involving more than one offer did not occur for this BPA.
Documentation in the files states:
       Competition was conducted by reviewing Schedule 70, SIN [special
       item number] 132-51, of the GSA contract number GS-35F-0323J and
       comparing prices of the listed vendors.

In addition to no competition, the estimated cost of BPA NBCHA010033
increased significantly. The original not-to-exceed amount was $1 million when
BPA NBCHA010033 was awarded on June 4, 2001. However, as of
November 2004, the total amount obligated was $116.5 million. In addition, the
period of performance for BPA NBCHA010033 was open-ended. The period of
performance is discussed in detail later in the report.

In addition, on March 18, 2005, the contracting officer’s representative performed
a review of the BPA and stated that he did not see any evidence of compliance
with Section 803. We also believe the award of BPA NBCHA010033 was
inappropriate and not in compliance with Section 803. On March 30, 2006, a
Southwest Acquisition Branch contracting supervisor stated that the contracting
officer decided in late 2004 not to issue any further orders under BPA
NBCHA010033. Table 6 identifies the BPAs reviewed.




                                     13
    Table 6. Blanket Purchase Agreements Awarded for DoD Purchases

   Blanket Purchase        Award         Estimated         Period       Competition
  Agreement Number          Date            Value        (in years)
                                        (in millions)
 GovWorks
 1435-04-05-BP-41582       2/25/05             $ 29.0         5        1 Offer
 1435-04-05-BP-40699       1/28/05              103.6         5        1 Offer
 1435-04-04-BP-32178      10/08/03         No Value           5        3 Offers
 1435-04-04-BP-32200      10/29/03        Established         5        2 Awards



 Southwest
 Acquisition Branch
 NBCHA010033                6/4/01                1.0     Indefinite   1 Offer


Had GovWorks contracting officials made awards directly from the Federal
supply schedules instead of using BPAs, competition would have occurred for
each order awarded instead of only once when the BPA was awarded.
Contracting officials did not always provide an adequate rationale for using
BPAs, which limit competition. For example, according to documentation in the
contract files, the benefit of using a BPA was to:
       Eliminate contracting and open market costs such as: the search for
       sources; the development of technical documents and solicitations; and
       the evaluation of bids and offers.

That documentation suggests that contracting officials viewed competition and
price reasonableness efforts as obstacles to the contract award process rather than
ways to obtain products and services at fair prices.

Use of Multiple-Award Contracts. FAR 16.504 requires that contracting
officers must, to the maximum extent practicable, give preference to making
multiple awards of indefinite-quantity contracts under a single solicitation for the
same or similar supplies or services to two or more sources. FAR 16.504 also
requires that contracting officers document the decision whether or not to use
multiple awards in the acquisition plan or contract file. For contracts for advisory
and assistance services that exceed $10 million and 3 years, contracting officers
are required to use multiple-award contracts.

Of the 49 contracts reviewed, 4 contracts were part of multiple-award
arrangements. GovWorks contracting officials awarded three of the contracts and
Southwest Acquisition Branch awarded one contract. However, GovWorks and
Southwest Acquisition Branch each awarded four non-multiple-award contracts
that may have been suitable for multiple-award contracts. None of these eight
questionable non-multiple-award contracts had documentation in the contract files
showing that contracting officials had evaluated whether these contracts were
suitable for multiple-awards. Table 7 shows the eight contracts that may have
been suitable for multiple awards, including the five BPAs discussed in the
previous section.


                                        14
                 Table 7. Contracts Suitable for Multiple Award

      Contract          Contract            Purchase Description            Period of
                          Value                                            Performance
                        (millions)                                          (in years)
      GovWorks
 40699                     $103.6    Professional Engineering Services          5
 GSA BPA
 32200                       None    Environmental Advisory Services            5
 GSA BPA
 32178                       None    Develop Geospatial Representations         5
 GSA BPA                             of Naval Installation Boundaries
 41582                        29.0   Contractor Support Services for the        5
 GSA BPA                             Defense Logistics Enterprise
                                     Services Program
     Southwest
  Acquisition Branch
 NBCHF040532                  38.6   Contractor Support Services for            5
 GSA Federal Supply                  Business Processes
 Schedule Order
 NBCHD030003                  46.0   Personnel Security Research and           10
 Full & Open                         Development Services
 NBCHA010033                   1.0   Consultation, Facilitation, and        Indefinite
 GSA BPA                             Survey Services
 NBCHC050174                  39.0   Technical, Engineering, and                5
 Full & Open                         Administrative Support Services

Open Market Purchases. Of the 49 contracts reviewed, 12 were awarded on the
open market, including 5 contracts awarded after only one offer was received.
GovWorks contracting officials awarded 4 of the one-offer open market contracts
and Southwest Acquisition Branch awarded 1 of the one-offer open market
contracts.
Contract Periods of Performance Beyond 5 Years. Four of 20 Southwest
Acquisition Branch contracts reviewed had periods of performance in excess of
5 years. These awards resulted in a single contractor retaining the work for up to
15 years or more. Table 8 lists these contracts.




                                      15
         Table 8. Contracts for Services With Performance Periods
                          Greater Than 5 Years

     Contract          Date Awarded          Period of            Purchase Description
                                            Performance
                                             (in years)
 NBCHD030003             February 11,             10          Personnel Security Research
                            2003                              and Development Services
 NBCHA010033             June 4, 2001         Indefinite      Consultation, Facilitation, and
                                                              Survey Services
 NBCHD020037             July 8, 2002             15          Research and Development
                                                              for Development of Electronic
                                                              Storefront
 NBCHC020001           October 9, 2001            8           Administrative, Testing, and
 NBCHC020002                                                  Engineering Support
 NBCHC020003
 (Multiple-Award)

On May 7, 2005, contracting officials awarded task order 0004, valued at
$2,338,155.00, under contract NBCHD030003, awarded on February 11, 2003,
valued at $46 million. Southwest Acquisition Branch contracting officials stated
that they could award the contract for a 10-year period of performance because
the requirements were unknown. The acquisition plan for the contract states that
contracting officials did not have to follow the procedures for multiyear
contracting under FAR Part 17. The acquisition plan states:
       After consulting FAR Part 17, the multi-year methodology of
       contracting is not applicable to this acquisition, as the quantity to be
       obtained cannot be defined. FAR 17.104 states that multi-year
       contracting is a special contracting method to acquire known
       requirements in quantities and total cost not over planned requirements
       for up to five years unless otherwise authorized by statute. The
       services to be purchased for this requirement will be obtained through
       the issuance of task orders against the basic contract. The requirements
       and quantities are not known, and cannot be accurately estimated at this
       time therefore multi-year contract does not apply.

Southwest Acquisition Branch contracting official’s rationale for the 10-year
period of performance was not justified because extremely long contracts
precludes flexibility in meeting changes in the marketplace. Further, the only
offer received was from the incumbent contractor, who had been providing the
services for the previous 5 years under an expiring contract. The acquisition plan
states:




                                         16
            [DoD requiring activity] has awarded previous contracts to obtain
            research and development support in the areas described in paragraph
            1.b. above. The current contract was awarded via full and open
            competition to [contractor] for an estimated value of $25,000,000, and
            a performance period of five-years. The current contract expires in
            June 2003.

     For BPA NBCHA010033, awarded on June 4, 2001, the period of performance
     was initially open-ended. The contract files stated, “this BPA will continue for
     the duration of the [contractor] contracts, and any modifications there to.” Based
     on that description, the BPA could continue indefinitely as long as the Federal
     supply schedule was extended. As of September 3, 2004, the period of
     performance was through September 30, 2004, and ultimately extended to
     March 31, 2009. Contracting officials decided in late 2004 not to issue any
     further orders under BPA NBCHA010033.

     For contract NBCHD020037, awarded to Networld on July 8, 2002, we reviewed
     five orders awarded in FY 2005. Southwest Acquisition Branch contracting
     officials created a long-term sole-source environment with Networld under this
     contract. The 15-year contract period for contract NBCHD020037 was unusually
     long. Contractors other than Networld are not likely to receive future awards
     because Networld developed Open Market Corridor and is maintaining the
     system. See finding C for information on other problems with
     contract NBCHD020037.

     Contract files for NBCHC020001, NBCHC020002, and NBCHC020003, part of a
     multiple-award arrangement awarded on October 1, 2001, did not explain the use
     of an 8-year period of performance.

     Until DOI contracting officials base their price reasonableness determinations on
     the results of detailed analyses, there is no assurance that DoD customers are
     obtaining products and especially services at a fair and reasonable price.


Price Reasonableness Decisions
     Contracts for services tended to have more problems with price reasonableness
     than did the contracts for products. Of the 49 contracts reviewed, 24 were for the
     purchases of services and 25 were for products. For 20 of the 24 contracts for
     services and 5 of the 25 contracts for products, contracting officers did not
     adequately document and support that the prices paid were fair and reasonable.

     GovWorks contracting officials did not adequately document and support price
     reasonableness decisions for 10 of 29 contracts reviewed. Eight contracts were
     for services and two contracts were for products. Contracting officials obtained
     only one offer for 9 of the 10 contracts. Southwest Acquisition Branch
     contracting officials did not adequately document and support price
     reasonableness decisions for 15 of 20 contracts reviewed. Twelve contracts were
     for services and three contracts were for products. Contracting officials obtained
     only one offer for 13 of these contracts.




                                             17
    At both GovWorks and Southwest Acquisition Branch, contracting officials based
    price reasonableness decisions on brief statements and cursory reviews of
    contractor-proposed costs by DoD requiring activities instead of on detailed
    analyses of contractor-proposed costs. Contracting officials also accepted
    independent Government cost estimates developed by DoD requiring activities
    that did not adequately explain the basis for the estimates. Price reasonableness
    problems occurred more frequently on contracts for which only one offer was
    received.


Review of Contractor Proposals
    For 19 of 24 contracts for services, DoD requiring activities and DOI performed
    incomplete technical reviews of contractor proposals. Of the nine GovWorks
    contracts for services, eight contained incomplete reviews of contractor proposals.
    Of the 15 Southwest Acquisition Branch contracts for services, 11 contained
    incomplete reviews of contractor proposals. Table 9 provides some examples of
    cursory reviews performed of contractor-proposed costs.




                                        18
                       Table 9. Review of Contractor Proposals

      Contracts and     Contract                          Cursory Review
         Orders           Value
                        (millions)
     NBCHD030003              $ 2.3   Technical evaluation for order 0004 consisted of an e-
     Order 0004                       mail from the DoD requiring activity to the DOI
                                      contracting officer, which stated, “Approved.”
     NBCHA010033               10.1   Technical evaluation for order 0024 consisted of an e-
     Order 0024                       mail from the DoD requiring activity to the DOI contract
                                      specialist, which stated, “I have read the proposal and
                                      cost estimate and approve. I will be sending the MIPR
                                      tomorrow.”
     NBCHF040500               10.2   Technical evaluation consisted of an e-mail from the
                                      DoD requiring activity stating: “The technical evaluation
                                      of the RFQ [request for quote] for the employ of
                                      instructors, admin, IT [information technology] armorers,
                                      and Logistics Warrior personnel for employment at the
                                      QMC&S [Quartermaster Center and School] is
                                      acceptable. Award the contract to [contractor]”
     41582                     28.0   Could not locate technical evaluation for order 42525.
     Order 42525                      However, the award decision document stated: “The
                                      technical evaluation was based on the BPA evaluation
                                      and a quick review of the quote by [Contractor] for this
                                      task order was conducted by the COTR [contracting
                                      officer’s technical representative] and was determined to
                                      be acceptable. . . ”
     NBCHF030277                2.0   Technical evaluation consisted of an e-mail stating: “I
                                      concur with [contractor’s] cost proposal and believe it is
                                      the best value for the support that Systems Engineering
                                      requires.”


    Regardless of the contract value, technical evaluations of contractor proposals for
    services that we questioned consisted of brief statements and short e-mails
    containing general statements. When evaluations mentioned costs, they focused
    on labor rates and labor categories, and not labor hours. DOI contracting officials
    should have asked DoD requiring activities to provide more detail instead of
    accepting the prices and awarding the contracts. DoD requiring activities need to
    place more emphasis on documenting and supporting their reviews of
    contractor-proposed costs.


Independent Government Cost Estimates
    For 22 of 24 contracts for services, DoD requiring activities developed
    incomplete and inadequate estimates. Independent Government cost estimates
    usually consisted of lists of labor rates, labor categories, and labor hours with no
    explanation of how DoD requiring activities developed the estimates. One
    estimate did not have a list of labor rates or hours. Instead, the unsigned, undated


                                         19
    estimate consisted only of a list of labor categories along with dollar values
    related to each labor category. Despite the lack of detail in these estimates,
    contracting officials awarded the contracts. DoD requiring activities need to
    place more emphasis on documenting and supporting information contained in
    independent Government estimates.


Legal Reviews
    A DOI memorandum from the Office of the Secretary, dated February 2, 2001,
    requires that the Office of the Solicitor perform legal reviews for all proposed
    solicitations in excess of $500,000 for noncommercial items and in excess of
    $2 million for commercial items. The memorandum also requires legal review for
    all proposed negotiated contractual documents prior to award on acquisitions in
    excess of $500,000. The documents submitted for review should include but are
    not limited to technical and price negotiation memorandums, the proposal of the
    successful offeror, any audits or waivers of audit, and the independent
    Government cost estimate.

    The DOI National Business Center decided not to comply with this policy. A
    DOI National Business Center report, “Acquisition Management Review for
    Acquisition Services Division Southwest Acquisition Branch,” April 30, 2003,
    stated:
           The DOI Acquisition Regulation (DIAR), as amended by the
           Department of the Interior Acquisition Policy Release (DIAPR) 2001-
           3, establishes Department wide legal review standards for acquisition-
           related documents. The office made a conscious decision not to
           comply with the stated policy because the Solicitor’s office was unable
           to provide timely service to them. This is not to say that there was a
           complete absence of solicitor review, but it was considerably less than
           the Departmental regulation anticipated. Arrangements have been
           made for a dedicated solicitor to be assigned to their office, so the
           problem should be alleviated within the next six months. In addition,
           they asked that consideration be given to raising the review thresholds
           applicable to their office since the dollar values of their work are much
           higher that the rest of the Department.

    It is interesting to note that part of the solution to the problem of untimely service
    by the solicitor’s office was to increase the legal review thresholds.

    On May 5, 2006, the Minerals Management Service Chief, Policy and Acquisition
    Information Systems Branch issued a memorandum to the Assistant Director,
    GovWorks Directorate, National Business Center. The memorandum states that
    DOI does not require its Office of the Solicitor to conduct a legal review of any
    DOI delivery or task order issued under any indefinite-delivery,
    indefinite-quantity contract. The chief also states that he researched the entire
    legal review policy and it does not require any type of legal review on any
    delivery or task order issued under a Federal supply schedule.

    DOI did not perform legal reviews for 18 of 49 contracts reviewed, valued in
    excess of $500,000. These included nine Federal supply schedule orders and nine
    indefinite-delivery, indefinite-quantity orders valued at more than $500,000.

                                             20
According to the May 5, 2006, Minerals Management Service Chief, Policy and
Acquisition Information Systems Branch memorandum, DOI legal reviews were
not required. Table 10 identifies some of the Federal supply schedule and
indefinite-delivery, indefinite-quantity orders GovWorks and Southwest
Acquisition Branch awarded even though DOI had not performed legal reviews of
them.

   Table 10. Examples of DOI Contracts Awarded Without Legal Review

 Contract                  Contract Type                     Value
                                                             (in millions)

 GovWorks

 41582/Order 42525         GSA BPA Federal Supply Schedule           $28.0
                           Order

 40699/Order41801          GSA BPA Federal Supply Schedule             9.4
                           Order

 32178/Order 73545         GSA BPA Federal Supply Schedule             1.5
                           Order

 1435-04-02-CT-            Indefinite-Delivery,                        3.9
 85531/Order 43387         Indefinite-Quantity
                           Multiple-Award Order



 Southwest Acquisition
 Branch

 NBCHF030277               GSA Federal Supply Schedule                 2.0
                           Order

 NBCHF040532               GSA Federal Supply Schedule                38.6
                           Order

 NBCHF040500               GSA Federal Supply Schedule                10.2
                           Order

 NBCHA010033/Order 0024    GSA BPA Federal Supply Schedule            10.1
                           Order

 NBCHD020092/Order 0116    Indefinite-Delivery,                        4.2
                           Indefinite-Quantity

 NBCHD030003/Order 0004    Indefinite-Delivery,                        2.3
                           Indefinite-Quantity

 NBCHD010004/Order 0049    Indefinite-Delivery,                        6.9
                           Indefinite-Quantity

When GovWorks and Southwest Acquisition Branch legal officials did review
contracts, the reviews were documented by signature of the person making the



                                    21
    review but contained no explanation or details about potential legal issues
    identified during the legal review.


Government Surveillance
    We questioned the adequacy of Government surveillance for 23 of the
    24 contracts for services reviewed. DFARS 201.6, “Contracting Authority and
    Responsibilities,” states that contracting officers may designate qualified
    personnel as their authorized representatives to assist in either technical
    monitoring or administration of a contract. It also states that a contracting
    officer’s representative must be designated in writing. Contract files for 3 of the
    24 service contracts reviewed did not have contracting officer’s representative
    letters. Contract files for 9 of the 24 contracts had contracting officer’s
    representative letters that were not signed by the contracting officer and the
    contracting officer’s representative.

    Quality Assurance Surveillance Plan Requirements. Twenty-three of the
    24 service contracts reviewed did not have quality assurance surveillance plans
    (QASP). FAR 46.103, “Contracting Office Responsibilities,” states:
           Contracting offices are responsible for receiving from the activity
           responsible for technical requirements any specifications for
           inspection, testing, and other contract quality requirements essential to
           ensure the integrity of the supplies or services (the activity responsible
           for technical requirements is responsible for prescribing contract
           quality requirements, such as inspection and testing requirements or,
           for service contracts, a quality assurance surveillance plan).

    According to FAR Subpart 46.4, “Government Contract Quality Assurance,” a
    QASP should be prepared in conjunction with preparation of the statement of
    work. The QASP should specify all work requiring surveillance and the method
    of surveillance. FAR Subpart 46.4 states:
           Government contract quality assurance shall be performed at such
           times (including any stage of manufacture or performance of services)
           and places (including subcontractors’ plants) as may be necessary to
           determine that the supplies or services conform to contract
           requirements. Quality assurance surveillance plans should be prepared
           in conjunction with the preparation of the statement of work. The
           plans should specify – (1) All work requiring surveillance; and (2) The
           method of surveillance.

    A QASP enables thorough and comprehensive monitoring of contractor
    performance. A QASP is used to measure contractor performance and ensure that
    the Government receives the quality of services called for under the contract,
    paying only for services received in accordance with the terms of the contract.
    Acquisition Executives for the Army, the Navy, and the Air Force, and Defense
    agencies should provide adequate training to requiring activity personnel on
    preparing QASPs.

    Documentation. Defense Procurement and Acquisition Policy recognizes the
    importance of adequately documenting pricing actions and the problems that can


                                              22
     occur as a result of poor documentation. In its Contract Pricing Guide, dated
     September 16, 2002, Defense Procurement and Acquisition Policy states:
            Need for Good Documentation. Good documentation is essential to
            good contracting. As time goes on, you forget times, dates, persons
            involved, and other elements that are important in all aspects of
            contracting and pricing in particular.

            While fresh in your mind, you should document:
                •   Events;
                •   Actions; and
                •   Decisions.

            Problems from Poor Documentation. Lack of good documentation can
            create serious problems. Since you will not always be available to
            explain what you did, or why, other contracting personnel will not
            know what happened, or about any special circumstances that may
            have affected your decisions. If your files lack proper documentation:

                •   Other contracting personnel may take the time to accomplish
                    an action or make a decision that you have already completed.
                    These actions or decisions may conflict with yours.

                •   Legal advisors and management review teams may question
                    your action of lack or action because they do not have all of
                    the relevant information.

                •   You will find that the lack or documentation is generally
                    treated as a lack of action. If it is not documented, it never
                    happened.



Contributing Factors Related to Contracting Deficiencies
     Although contracting officials placed a high priority on obtaining customer
     satisfaction, they did not foster a competitive environment, demonstrate that the
     prices paid for DoD purchases were fair and reasonable, or adequately document
     contract files. Using the competition regulations to justify awards based on one
     offer was the rule rather than the exception, and price reasonableness
     determinations were based on incomplete and cursory reviews of contractor
     proposals.


Recommendations, Management Comments, and Audit
  Response
     The majority of the recommendations to help solve the deficiencies identified in
     finding A are included in DoD Inspector General Report No. D-2007-007,



                                             23
“FY 2005 DoD Purchases Made Through the General Services Administration,”
October 30, 2006.

A.1. We recommend that the Under Secretary of Defense for Acquisition,
Technology, and Logistics not initiate new DoD contracts or orders at the
Southwest Acquisition Branch until the Department of the Interior
establishes a control environment and framework to resolve the contracting
deficiencies.

Under Secretary of Defense for Acquisition, Technology, and Logistics
Comments. The Director, Defense Procurement and Acquisition Policy
commented on behalf of the Under Secretary of Defense for Acquisition,
Technology, and Logistics. He concurred with the recommendation. The
Director stated that the amount of work performed at the Southwest Branch on
behalf of the Military Departments had decreased significantly from FY 2005 to
FY 2006. This decrease was due in part to the decision to proceed with new work
at the Southwest Branch only on a selective basis. The Director stated that DoD
has received information from DOI which documents that earlier this year, DOI
established an aggressive corrective action plan to address and resolve identified
contracting deficiencies within the National Business Center Southwest
Acquisition Branch. DOI took specific action to rescind contracting officer
warrants and performed assessments of each contracting officer’s work products.
After a comprehensive internal and independent review of each contracting
officer’s work, DOI took action to issue warrants to qualified contracting
officers. The information provided indicates that they have established more
vigorous operational practices and procedures to ensure actions taken on behalf of
DoD are compliant with statute, policy, and regulation. The Director requested
that we ascertain the results of these corrective actions during our next review.

Audit Response. The Director’s comments are responsive. We commend the
Director and DOI for initiating corrective actions to address the serious problems
that the joint audits found. As requested, we will evaluate the results of those
corrective actions during our next review.

A.2. We recommend that Acquisition Executives for the Army, Navy, Air
Force, and Defense agencies make program and contracting offices aware of
any recurring deficiencies in the development of independent Government
cost estimates, technical evaluations, and price negotiation memorandums,
and implement an enforcement program that prevents those problems from
reoccurring.

Army Comments. The Deputy Assistant Secretary of the Army (Policy and
Procurement) concurred with the recommendation.

Navy Comments. The Deputy Assistant Secretary of the Navy (Acquisition
Management) concurred with the recommendation. He stated that the Assistant
Secretary of the Navy (Financial Management and Comptroller) and the Assistant
Secretary of the Navy (Research, Development, and Acquisition) had participated
in an interdepartmental working group to develop financial management policy
for Non-Economy Act orders. The guidance stresses that development and
review of proposed Non-Economy Act procurement requests is a collaborative
effort of program, comptroller, and contracting personnel. Implementing this



                                    24
financial management policy on Non-Economy Act orders will inform program
personnel of their roles and responsibilities under Non-Economy Act acquisitions.

Air Force Comments. The Assistant Secretary of the Air Force (Acquisitions)
concurred with the recommendation. The Assistant Secretary stated that Air
Force users of interagency acquisitions must provide independent Government
estimates and should participate in technical evaluations as required for each
acquisition. Air Force Contracting and Air Force Finance will issue an updated
Air Force Military Interdepartmental Purchase Request (MIPR) guide in early
2007. The guide will address audit concerns by requiring that a contracting
analyst and a financial analyst review all MIPRs for compliance with acquisition
and financial policies and procedures. Additionally, the Assistant Secretary stated
that she would issue a memorandum reiterating the importance of compliance
with applicable policies and regulations when using MIPRs. Further, Air Force
Acquisition will implement the corrective actions put forth by the Under
Secretary for Defense for Acquisition, Technology, and Logistics in its response
to this draft report.

Audit Response. The Army, Navy, and Air Force comments are responsive to
the recommendation.




                                    25
           B. Funding Issues Relating to the
           Department of the Interior Contracting
           DoD and DOI did not always follow the bona fide needs rule when
           acquiring goods and services with 1-year operation and maintenance
           (O&M) funds. DoD activities “banked” funds at DOI for future use and
           did not deobligate the funds after they were no longer needed or had
           expired. GovWorks routinely used the expired funds to purchase DoD
           requirements. In some cases, GovWorks used expired funds to obtain
           goods and services 4 years after the funds expired. Overall, we identified
           up to $393 million in expired DoD appropriations still on GovWorks
           accounting records. DoD fund managers should review and deobligate
           these appropriations. Use of appropriated funds after they expired and
           bona fide needs rule violations resulted in 22 potential Antideficiency Act
           violations on the 49 contracts we reviewed.

Funding Criteria
    Bona Fide Needs Rule. Appropriations are available for limited periods. An
    agency must incur a legal obligation to pay money within an appropriation’s
    period of availability. If an agency fails to obligate funds before they expire, they
    are no longer available for new obligations. Expired funds retain their “fiscal
    year identity” for 5 years after the end of the period of availability. During this
    time, the funds are available to adjust existing obligations or to liquidate prior
    valid obligations. However, expired funds are not available for new obligations
    nor can they be used to purchase new requirements.

    Appropriations are available only for the bona fide needs of an appropriation’s
    period of availability (31 U.S.C. 1502(a)). The bona fide needs rules states:
           The balance of an appropriation or fund limited for obligation to a
           definite period is available only for payment of expenses properly
           incurred during the period of availability, or to complete contracts
           properly made within that period of availability and obligated
           consistent with section 1501 of this title. However, the appropriation
           or fund is not available for expenditure for a period beyond the period
           otherwise authorized by law.

    Antideficiency Act. Congress passed the Antideficiency Act to curb the fiscal
    abuses that frequently created “coercive deficiencies” that required supplemental
    appropriations. The Antideficiency Act consists of several statutes that mandate
    administrative and criminal sanctions for the unlawful use of appropriated funds
    [31 U.S.C. 1341, 1342, 1350, 1351, and 1511-1519]. These statutory provisions
    enforce the Constitutional budgetary powers entrusted to Congress with respect to
    the purpose, time, and amount of expenditures made by the Federal Government.
    Violations of other laws may trigger violations of Antideficiency Act provisions
    (for example, the “bona fide needs rule,” 31 U.S.C. 1502(a)). Knowing and
    willful violators are subject to fines and imprisonment for up to 2 years.

          DoD Financial Management Regulation Guidance. Annual
    Appropriation Acts define the use of each appropriation and set specific timelines


                                             26
    for use of the appropriations. However, the DoD Financial Management
    Regulation (FMR), volume 2A, chapter 1, provides guidelines on most commonly
    used DoD appropriations for determining the correct appropriation to use when
    planning acquisitions.

            Expenses and Investments. All costs are classified as either an expense
    or an investment. Expenses are costs of resources consumed in operating and
    maintaining the DoD and typically have an approved threshold of $250,000 for
    expense and investment determinations. Investments are costs to acquire capital
    assets, such as real property and equipment, and have a cost higher than the
    currently approved dollar threshold of $250,000. Costs budgeted in the O&M
    appropriations are considered expenses. Costs budgeted in the procurement
    appropriation are considered investments. Costs budgeted in the research,
    development, test, and evaluation (RDT&E) appropriations include both expenses
    and investments.

            RDT&E Appropriations. Development, test, and evaluation
    requirements, including designing prototypes and processes, should be budgeted
    in the RDT&E appropriations. In general, all developmental activities included in
    bringing a program to its objective system are to be budgeted in RDT&E.
    RDT&E funds are available for obligation for 2 years.

            O&M Appropriations. Expenses incurred in continuing operations and
    current services are budgeted in the O&M appropriations. Modernization costs
    under $250,000 are considered expenses, as are one-time projects, such as
    development of planning documents and studies. O&M funds are available for
    obligation for 1 year.

           Minor Construction. FMR volume 2B, chapter 6 states that an
    unspecified military construction project costing no more than $750,000 may be
    funded from appropriations available for O&M. Minor construction projects
    costing more than $750,000 may not be performed unless 10 U.S.C. 2805
    requirements are met.

Requirements for Obligation of Funds for Interagency Orders
    When a Government agency orders supplies or services through another agency,
    it must create an obligation that legally defines the items it is procuring and
    obligates agency funds to pay for the procurement. DoD Components generally
    use the Military Interdepartmental Purchase Request (MIPR) (DD Form 448) as
    the obligating document for interagency orders. The obligation must also meet
    several legal and regulatory requirements.

           •   An obligation must be definite and certain. [GAO Red Book, volume
               II, page 7-3].

           •   Funds are to be obligated only for the purposes for which they were
               appropriated [31 U.S.C. 1301(a)].

           •   Funds are to be obligated only to satisfy the bona fide needs of the
               current fiscal year [31 U.S.C. 1502(a); DoD FMR, volume 3, chapter
               8, paragraph 080303A].


                                       27
                   •   Funds are to be obligated only if there is a genuine intent to allow the
                       contractor to start work promptly and to proceed without unnecessary
                       delay [DoD FMR, volume 3, chapter 8, paragraph 080303B].

                   •   Current funds are to be obligated when the Government incurs an
                       obligation (or a liability) [DoD FMR, volume 3, chapter 8, paragraph
                       080302].

                   •   Funds are not to be obligated in excess of (or in advance of) an
                       appropriation, or in excess of an apportionment or a formal
                       subdivision of funds [31 U.S.C. 1341 and 1517].

           The Comptroller General has also held that it is improper to “bank” appropriated
           funds with another agency to cover future year needs.3

           Requirements for Review of Outstanding Obligations and Commitments.
           Defense agencies are required by DoD FMR, volume 3, chapter 8, section 080401
           to perform reviews of unliquidated obligations and commitments three times each
           year:
                   Fund holders, with assistance from supporting accounting offices, shall
                   review commitment and obligation transactions for timeliness,
                   accuracy, and completeness during each of the four month period
                   ending on January 31, May 31, and September 30 of each fiscal year.
                   Fund holders are DoD officials that receive a documented
                   administrative subdivision of funds including apportionments,
                   allocations, suballocations, allotments, and suballotments through their
                   funding chain of command or from other government departments,
                   agencies, and activities holding an administrative subdivision of funds.
                   The requirement for reviews of commitments and obligations applies to
                   all appropriations and funds of all DoD Components. This requirement
                   applies not only to direct appropriations, but also to all reimbursable
                   transactions, as well as the Department’s revolving and trust funds.



DoD Compliance With Fiscal Law and Defense Regulations on
  Specificity of Obligations, Obligation Amounts, and Bona
  Fide Needs
           DoD Components did not always comply with appropriations law when procuring
           goods and services through GovWorks. We found 22 potential Antideficiency
           Act violations, including potential violations of the bona fide needs rule and
           obligating documents that did not have the required level of specificity.
           Additionally, large sums of money were transferred to GovWorks by MIPRs
           without the required support for how the amount of funds was determined and
           with a nonspecific description of goods or services to be acquired. Although the
           DoD agencies have the primary responsibility for compliance with fiscal law,

3
    Implementation of the Library of Congress FEDLINK Revolving Fund, B-288142, September 6, 2001;
    Continued Availability of Expired Appropriation for Additional Project Phases, B-286929, April 25,
    2001.



                                                     28
certain GovWorks advice to its customers and specified GovWorks procedures
fostered these practices.

Requirement for Specificity in Obligations. To establish a valid obligation and
satisfy requirements in 31 U.S.C. 1501, an agency has to be specific in defining
its requirements. However, the GovWorks Web site encouraged its customers to
submit MIPRs with undefined requirements and to use MIPRs primarily as a
vehicle to transfer funds into an account (bank account) instead of assigning a
specific requirement to a specific amount.

The Comptroller General has defined an obligation as “a definite commitment
which creates a legal liability of the Government for the payment of appropriated
funds for goods and services ordered or received.” The Comptroller General has
cautioned that the obligating of appropriations must be “definite and certain” and
that an advance of funds to a working fund does not in itself serve to obligate the
funds. The statute requires documentary evidence of a binding agreement for
specific goods or services. An agreement that fails this test is not a valid
obligation. The Comptroller General has ruled that a purchase order that lacks a
description for the products to be provided is not sufficient to create a recordable
obligation. When the Comptroller General determines an obligation does not
meet the specificity test, the obligation has been ruled invalid.

The FAR and DoD FMR have requirements for specificity for Economy Act
Orders but do not provide specific guidance on franchise fund orders such as
GovWorks. Nevertheless, we believe that these same rules are applicable. FMR
volume 11A, paragraph 030401, states that intragovernmental support agreements
need to be specific, definite, and certain in naming the work encompassed by the
order and the terms of the order itself. Both FMR volume 11A, paragraph
030501, and FAR 17.504 require that the ordering official provide a description
of the supplies and services on the order.

GovWorks encouraged its customers to describe requirements in general rather
than specific terms when developing MIPRs as shown in the Project Description
(see Figure 2). However, when the terms are not specific, they do not meet the
requirements for a valid obligation and GovWorks will not have the necessary
detail to immediately process the order as required by DoD FMR, volume 3,
chapter 8, paragraph 080303B. Also, the sample document encourages customers
to submit a statement of work if available; the statement of work should be a
mandatory requirement for acquisition of services to meet the requirement for
specificity. We reviewed descriptions used for 103 MIPRs that funded 29
contract actions at GovWorks to determine whether the MIPRs met the specificity
requirements. Sixty-five (63.1 percent) of the 103 MIPRs did not meet the
requirement for specificity. For example:

       •   Contract action 43270 for the purchase of body armor used a MIPR
           that stated “Funding provided for the procurement and fielding of
           AT/FP [Anti-Terrorism/Force Protection] shipboard equipment
           utilized for the protection of Navy Afloat Assets.”

       •   Contract action 41432 for the purchase of three wide-screen plasma
           television screens was based on a MIPR that stated, “Purpose of this
           MIPR is to provide funds for the purchase of DMS [Defense



                                     29
           Messaging System] equipment through the Pentagon IT [information
           technology] Store.”

An order should be sufficiently detailed to permit the contracting officer to
immediately place the order without the need for further customer consultation.
For supplies, we believe that the description should include a listing of the items,
with specifications, to be procured. It should also specify the required quantities
of each item, delivery requirements, and fund citation. For services, the ordering
official needs to attach a detailed statement of work to the MIPR.




                                     30
              Figure 2. Sample MIPR From the GovWorks Web Site4 Used to Help
                                 Customers Prepare MIPRs



4
    https://www.govworks.gov/docs/MIPRsample_04122006.pdf



                                              31
Obligation Amount. The GAO Red Book, volume II, states that the precise
amount of the Government’s liability should be recorded as the obligation when
that amount is known. However, an agency’s best estimate should be used when
the precise amount is not known, and the basis for the estimate must be shown on
the obligating document. DoD customers did not always supply to GovWorks
support for the obligation amounts. The MIPRs appeared to be serving as a way
to transfer funds into a “bank” rather than as a way to place orders. To ensure
that the MIPR is properly used as an obligating document and not just a means to
transfer funds, we believe that DoD needs to require that MIPRs be supported by
an attached Government cost estimate. The Government cost estimate could
provide the required support for the obligated amount, could be used by the
contracting officer as partial support for cost reasonableness, and should be
consistent with the description of the supplies or services being procured. Our
review of the 29 contracts placed through GovWorks showed that only 37
(36.3 percent) of the 103 MIPRs funded were within 10 percent of the total listed
on the MIPR.

Potential Violations of the Bona Fide Needs Rule. Overall, we identified
22 potential Antideficiency Act violations relating to the 49 contracts reviewed.
We believe that some of the violations are the result of DoD customers not
understanding the bona fide needs rule and GovWorks promoting the franchise
fund as a way to circumvent time limits on the use of appropriated funds.

Since 1999, GovWorks has advertised to its customers that the customers may use
appropriated funds submitted to GovWorks until the funds are exhausted,
irrespective of the appropriation fund period of availability. GovWorks has relied
on legal opinions from its Solicitor to support that position. Demonstrating this
position, GovWorks included the following “Frequently Asked Question” on its
Web site:

       4. Is there a legal opinion that supports GovWorks retaining
       project funds in the Interior Franchise Fund until expended or
       bona fide?

       Yes. Under the authority of the Government Management Reform Act
       (GMRA) and guidance from GAO, GovWorks may retain project
       funds obligated by the requesting agency under an order to GovWorks
       for a bona fide need. Project funds are retained until expended.

       [retrieved from the GovWorks Web site www.govworks.gov on May
       18, 2006]




                                       32
Similarly, a 1999 GovWorks brochure (Figure 3) emphasized that funds may be
sent to GovWorks and held until spent.




             Figure 3. Advertisement Brochure From GovWorks

Appendix F identifies the orders that did not follow the bona fide needs rule and
potentially violated the Antideficiency Act. We found 22 potential violations of
the bona fide needs rule including 2 potential violations of the purpose statute
[31 U.S.C. 1301(a)].

Many of the bona fide needs rule violations occurred when DoD activities
transferred funds in bulk to GovWorks using MIPRs that described the
acquisition only in general terms; then, DoD activities would convey the actual
requirements to GovWorks via telephone or e-mail well after the date on which
they submitted the MIPR. We believe the date that the specific requirements
were conveyed to GovWorks was the date of the requirement—not the date that
the MIPR was submitted.

For example, on December 21, 2004, GovWorks contracting officials awarded
contract 41181, valued at $108,196, for the purchase of decision network
equipment for the Pentagon Telecommunications Service Center. Instead of
using FY 2005 O&M funds to pay for this purchase, GovWorks contracting
officials used portions of funds from four expired O&M MIPRs to fund the
purchase, including 3 MIPRs in which the funds expired on September 30, 2001,
and one MIPR in which the funds expired on September 30, 2004. Further, on
January 18, 2005, GovWorks contracting officials deobligated $26,399.03 from
one MIPR in which the funds expired on September 30, 2001. GovWorks
replaced those funds with funds from four other expired O&M MIPRs, including


                                    33
          one MIPR in which the funds expired on September 30, 2000. Use of FY 2000,
          2001, and 2004 Army O&M funds to satisfy FY 2005 requirements does not meet
          the intent of the bona fide needs rule. Table 11 shows the four MIPRs initially
          used to initially fund contract 41181. Table 12 shows the four additional MIPRs
          used to replace one of the original MIPRs (MIPR1JDIT0N046). Appendix F
          provides more detail on funding issues identified with contract 41181 and other
          contracts reviewed.

          Table 11. MIPRs Initially Used to Fund DOI Contract 411815

                     MIPR        MIPR          MIPR Date       Description of Acquisition on
                                 Amount                        MIPR
            MIPR1MINTPR070       $ 6,831.30    September 14    “Funds are provided for the
                                               , 2001          acquisition of ADP [automatic
                                                               data processing] and supplies
                                                               through the Pentagon IT
                                                               [information technology] store”
            MIPR1JDIT0N046         26,399.03   July 10, 2001   “Funds are provided for the
                                                               acquisition of toner cartridges
                                                               through the Pentagon IT store”
            MIPR1KINTWS058         38,803.30   July 24, 2001   “Funds are provided for the
                                                               acquisition of ADP and
                                                               supplies through the Pentagon
                                                               IT store”
            MIPR4MINTMM125         36,162.37   September 17    “The purpose of this MIPR is to
                                               , 2004          provide funds for equipment
                                                               through the Pentagon IT store”
             Total               $108,196.00




5
    Awarded December 21, 2004.



                                               34
    Table 12. MIPRs Used to Replace MIPR Number MIPR1JDIT0N046

              MIPR          MIPR            MIPR Date      Description of Acquisition on
                            Amount                         MIPR
     MIPR0MGSAIT092         $     160.00    September 29   “Funds are provided for the
                                            , 2000         acquisition of ADP [automatic data
                                                           processing] products and services
                                                           through the Pentagon IT
                                                           [information technology] store,
                                                           under project number DOI84011”
     MIPR1MITST0074              3,176.76   September 24   “Funds are provided for the
                                            , 2001         acquisition of ADP and supplies
                                                           through the Pentagon IT store’
     MIPR4LINTMM111             11,393.50   August 18,     “The purpose of this MIPR is to
                                            2004           provide funds for equipment
                                                           through the Pentagon IT store”
     MIPR4MINTMM130             11,668.77   September 24   “The purpose of this MIPR is to
                                            , 2004         provide funds for the purchase of
                                                           DMS [defense messaging system]
                                                           equipment through the Pentagon
                                                           IT store”
      Total                 $26,399.03


Expired Appropriations at GovWorks
    About $393 million in “banked” DoD funds at GovWorks may have expired.
    DoD Components need to review these funds for possible deobligation to
    preclude their use in future acquisitions that may result in additional violations of
    the bona fide needs rule.

    Summary of Expired Funds. At our request, GovWorks prepared a spreadsheet
    showing outstanding fund balances, by funding document, for all of its customers
    as of October 27, 2005. We filtered the spreadsheet by removing all non-DoD
    customers, funding documents that cited current funds or working capital funds,
    and MIPRs with a balance of $1 or less. About 12.5 percent of the remaining
    transactions had either missing or erroneous information on the appropriations
    used. For those transactions, we identified and excluded MIPRs that had been
    received during FY 2005 and later. Two of the appropriations specified multiple
    periods of availability. The appropriation account sublimits were used to
    distinguish the period of availability. Because GovWorks did not record
    appropriation sublimits in its management system, we could not determine
    whether those funds expired; therefore, we included funds over 1 year as
    potentially expired for those two appropriations.

    The remaining MIPRs appear to be expired funds that DoD fund managers should
    deobligate. Table 13 provides a summary of our analysis.

    On February 17, 2006, we provided the spreadsheet showing expired MIPRs to
    staff of the Deputy Under Secretary of Defense (Comptroller)/Chief Financial
    Officer. The Comptroller’s staff noted that a substantial amount of the funds


                                            35
were FY 2005 O&M funds. The staff believed that a significant portion of the
funding could be orders for services that are still in process and may be
legitimately used. We agreed that there might be a portion of the funds identified
that could be legitimately used. However, we disagree with the Comptroller’s
staff on the potential magnitude without a thorough analysis. The cutoff period
for the data we obtained was 27 days after the end of the fiscal year, and the
majority of the purchases by GovWorks were for products instead of services.
Fund managers should further research the funds listed in the spreadsheet and
deobligate the funds that have expired.




                                    36
Table 13. Summary of Potentially Expired DoD Appropriated Funds on the
Books at GovWorks as of October 27, 2005

 Appropriation Account and Availability               Amount          Percent
 Operation & Maintenance (1 Year Appropriation)
 2002                                             $      4,016.28           0.0
 2003                                               29,796,230.95           7.6
 2004                                               46,211,939.67          11.7
 2005                                              185,107,140.73          47.1
 Other Procurement (3 Years Appropriation)
 2003                                                   574,388.14          0.1
 Research, Development, Test, and Evaluation
 (2 Years Appropriation)
 2002                                                     33,628.46         0.0
 2003                                                  5,243,082.62         1.3
 2004                                                  1,045,824.99         0.3
 Family Housing Operation and Maintenance, Navy
 and Marine Corps (1 Year Appropriation)
 2003                                                    42,220.13          0.0
 2004                                                    11,817.53          0.0
 Defense Health Program, Defense
 2002                                                      9,746.81         0.0
 2003                                                  2,384,143.33         0.6
 2004                                                 17,244,420.42         4.4
 2005                                                 56,790,402.84        14.4
 Office of Inspector General
 2004                                                    52,839.00          0.0
 2005                                                     1,697.41          0.0
 Aircraft Procurement (3 years Appropriation)
 2003                                                      2,310.70         0.0
 Blank-Appropriation Account or Invalid Account
 1998                                                     17,842.47         0.0
 1999                                                      3,423.95         0.0
 2000                                                    234,435.29         0.1
 2001                                                    354,613.12         0.1
 2002                                                  4,139,278.29         1.1
 2003                                                  4,709,446.37         1.2
 2004                                                    883,334.33         0.2
 2005                                                 38,416,568.70         9.8
 Total                                            $393,314,792.53         100.0




                                     37
    Reviewing Appropriations Three Times a Year. The large sums of expired
    appropriations on GovWorks’ books indicate that DoD Components are not
    performing the reviews three times a year and deobligating appropriations when
    orders have been completed or the funds have expired. To reinforce the
    requirement, the Under Secretary of Defense (Comptroller)/Chief Financial
    Officer released the March 27, 2006, memorandum “Proper Use of Interagency
    Agreements with Non-Department of Defense Entities Under Authorities Other
    Than the Economy Act.” The memorandum directed DoD Components to:

        •   review all interagency agreements to determine their status, close out all
            completed agreements, and return all funds remaining on completed
            agreements no later than June 30, 2006;

        •   deobligate expired funds unless they meet criteria identified in the prior
            memorandum, “Proper Use of Interagency Agreements for Non-
            Department of Defense Contracts Under Authorities Other Than the
            Economy Act,” dated March 25, 2005;

        •   mark on future interagency agreement funding documents that funds are
            available for services for period not to exceed 1 year from the date of
            obligation and acceptance of the order, and require the servicing agency
            to return unobligated funds to the ordering activity after 1 year from the
            acceptance of the order or upon completion of the order;

        •   certify that the goods acquired under the agreement are legitimate,
            specific requirements representing a bona fide need of the fiscal year in
            which the funds are obligated;

        •   attest on obligation reviews three times a year that all existing interagency
            agreements are consistent with DoD policy; and

        •   report to the Comptroller’s office on amounts reviewed and deobligated
            no later than July 15, 2006.


Recommendations, Management Comments, and Audit
  Response
    Recommendations to the Under Secretary of Defense (Comptroller)/Chief
    Financial Officer to initiate preliminary reviews of potential Antideficiency Act
    violations are in DOD Inspector General Report No. D-2007-042, “Potential
    Antideficiency Act Violations on DoD Purchases Made Through Non-DoD
    Agencies,” January 2, 2007.

    B. We recommend that the Under Secretary of Defense (Comptroller)/Chief
    Financial Officer:

           1. Issue guidance to DoD Components on the need for specificity
    when they prepare the Military Interdepartmental Purchase Requests to
    order goods and services.




                                         38
       2. Review the $393 million potentially expired funds and require all
expired funds to be deobligated and returned to the treasury.

Under Secretary of Defense (Comptroller)/Chief Financial Officer
Comments. The Acting Deputy Chief Financial Officer provided comments on
behalf of the Under Secretary of Defense (Comptroller)/Chief Financial Officer.
He concurred with Recommendations B.1. and B.2. He stated that policy
published on the Comptroller’s Web site on October 16, 2006, provides guidance
on the need for specificity when preparing purchase orders. Additionally, the
Comptroller had directed all Components to review interagency agreements and
coordinate the return of excess funds with the outside agency by June 30, 2006.
As of January 2007, DoD Components have deobligated $451.3 million in
expired funds. Additionally, the Acting Deputy Chief Financial Officer stated
that they were working with DOI to identify and facilitate the return of expired or
excess funding.

Audit Response. The Acting Deputy Chief Financial Officer’s comments are
responsive. The Comptroller’s staff told us that the $451.3 million deobligations
were from all agencies that do procurements for DoD, and the Comptroller office
could not breakout obligations for DOI.




                                    39
                   C. Open Market Corridor
                   The Open Market Corridor (OMC) is an Internet-based contracting system
                   developed by a contractor working for the Naval Postgraduate School,
                   with contracting support provided by the DOI Southwest Acquisition
                   Branch. The OMC was implemented before requirements for security
                   accreditation, internal controls, legal review, and agency head approval
                   had been satisfied. Additionally, the Southwest Acquisition Branch did
                   not adequately oversee the system once it was implemented. As a result,
                   activities used the system to award contracts totaling more than
                   $238.7 million without adequate reviews. Additionally, the Southwest
                   Acquisition Branch granted contract-ordering authority to a lecturer at the
                   Naval Postgraduate School who did not have a contracting officer warrant.
                   Subsequently, the lecturer, using the OMC, made awards totaling about
                   $135 million on behalf of the Naval Postgraduate School and other Army,
                   Navy, and Air Force activities.


Requirements for Implementing an Internet-Based
  Procurement System
           FAR Subpart 4.5, “Electronic Commerce in Contracting,” encourages the Federal
           Government to use electronic commerce whenever practicable or cost-effective.
           However, before an automated system can be brought on-line, several steps have
           to be completed to ensure that system has the proper security, internal controls,
           legal sufficiency, and approval to operate. These steps are necessary to ensure
           that the system operates as designed and data and controls have a reduced risk for
           compromise.

           Security Accreditation. DoD Instruction 5200.40, “DoD Information
           Technology Security Certification and Accreditation Process (DITSCAP),”
           December 30, 1997, establishes a standard DoD-wide process, set of activities,
           general tasks, and a management structure to certify and accredit information
           systems.6 DITSCAP protects and secures information systems and other elements
           that make up the Defense Information Infrastructure. The instruction applies to
           DoD Components, their contractors, and their agents. It implements requirements
           of the Computer Security Act of 1987 (Public Law 100-235); Office of
           Management and Budget Circular 130, “Management of Federal Information
           Resources”; and other DoD instructions.

           Internal Controls. Management controls are the organization, policies, and
           procedures used to reasonably ensure that:

               •   programs achieve their intended results;

               •   resources are used consistent with agency mission;

6
    On July 6, 2006, the DoD Chief Information Officer issued the “Interim Department of Defense (DoD)
    Information Assurance (IA) Certification and Accreditation (C&A) Process Guidance,” which
    superseded the DITSCAP.



                                                    40
       •   programs and resources are protected from waste, fraud, and
           mismanagement;

       •   laws and regulations are followed; and

       •   reliable and timely information is obtained, maintained, reported, and used
           for decision-making.

    The Office of Management and Budget Circular A-123, Federal Managers’
    Financial Integrity Act (Public Law 97-255); the Federal Financial Management
    Improvement Act (Public Law 101-576); Federal Information Security
    Management Act of 2002; Chief Financial Officers Act of 1990; and “Standards
    for Internal Control in the Federal Government,” Report No.
    GAO/AIMD-00-21.3.1, November 1999, require sound internal controls.

    Legal Sufficiency. FAR 1.602-2 states that contracting officers must ensure
    performance of all necessary actions for effective contracting, ensure compliance
    with the terms of the contract, and safeguard the interests of the United States in
    its contractual relationships. To perform these responsibilities, contracting
    officers have wide latitude to exercise business judgment but are required to
    request and consider the advice of specialists, including legal staff, as appropriate.

    Approval to Operate an Internet-Based Accounting System.
    FAR 4.502(b) states that agencies have broad discretion in selecting the hardware
    and software used for electronic commerce. However, after consulting with the
    Administrator of the Office of Federal Procurement Policy, the agency head must
    determine that the system conforms with requirements of section 30 of the Office
    of Federal Procurement Policy Act (41 U.S.C. 426) and specific standards
    identified in FAR 4.502(b) before deploying electronic commerce systems.

    Other Compliance Requirements. Office of Management and Budget Circular
    A-127, “Financial Management Systems,” July 30, 1993, states that financial
    management systems and processing instructions must be clearly documented in
    accordance with the Federal Financial Management Systems Requirements
    published by the Joint Financial Improvement Program and other applicable
    requirements. All documentation (for example, software, system, operations, user
    manuals, operating procedures) must be up to date and readily available for
    examination. Acquisition systems such as the OMC should conform to
    requirements in “Acquisition/Financial Systems Interface Requirements,” Joint
    Financial Improvement Program, report number JFMIP-SR-02-02, June 2002.


Contracting for the Development and Operation of the OMC
    OMC operates under contract number NBCHD020037, an indefinite-delivery,
    indefinite-quantity contract awarded by the Southwest Acquisition Branch on
    July 18, 2002, to Electronic-Co, Inc., which does business as Networld Exchange
    (Networld). The OMC system began as a research project sponsored by the
    Naval Postgraduate School in Monterey, California, to streamline the Federal
    acquisition process. The OMC contract was competed in compliance with FAR
    Part 15.



                                         41
   Because Networld developed the OMC system at its own expense, the contract
   made Networld eligible for a fixed-price percentage fee of 1.25 percent of each
   award made through OMC. The contract also states that the Naval Postgraduate
   School and DOI will receive 0.50 percent and 0.25 percent respectively, on each
   of the awards. The Southwest Acquisition Branch has contracting authority for
   the OMC, but the contracting officer has the authority and option to delegate
   administrative contract authority to any Federal Government employee with a
   contracting warrant. The OMC contract will extend to the year 2017 if the
   Southwest Acquisition Branch exercises all contract options.

   The OMC contract can be used to procure commercial products or services as
   defined in FAR Part 12. Networld is the prime contractor, and any vendor that
   signs up to sell its goods or services through the OMC becomes a subcontractor to
   Networld. All contractors who have registered in the central contractor
   registration database are eligible to become subcontractors to Networld. As of
   August 2006, OMC had 952 participating vendors and 120 Government activities
   registered to make purchases through OMC. Participating vendors received
   contracts totaling $131.1 million during FY 2005 from both DoD and non-DoD
   business.


OMC Problems
   We reviewed five DoD orders placed through the OMC in detail, the overall
   operations of the system, and the documentation available for the system.
   Additionally we surveyed other acquisitions made through the system by
   administrative ordering officers approved by DOI Contracting Officer and for
   whom DOI contracting officer was to provide oversight.

   DOI and the Naval Postgraduate School did not complete many of the required
   steps before bringing the system on-line. The DOI contracting officer did not
   adequately oversee the system and transactions processed through the system.

   Security Accreditation. The Naval Postgraduate School had not performed the
   required DoD Information Technology Security Certification and Accreditation
   Process (DITSCAP) prior to deploying the OMC. DITSCAP is a process that
   helps ensure systems operate at an acceptable level of risk. DITSCAP
   certification is typically required for connection to DoD and other Federal
   systems, networks, and applications. Security is important to an acquisition
   system because of the need to provide confidentiality, maintain continuity of
   operations, and ensure integrity of the data.

   Internal Controls. Neither the Naval Postgraduate School nor DOI evaluated
   internal controls prior to deploying the OMC. We observed weaknesses in system
   documentation, internal control procedures, and in operation of the system.
   Additionally, the Southwest Acquisition Branch did not adequately oversee the
   system.

            Documentation. Neither the Southwest Acquisition Branch nor the Naval
   Postgraduate School could provide system documentation for the OMC. System
   documentation of dataflow and control points within the system is needed to
   facilitate internal control reviews of the system.


                                      42
        Vendor Selection and Bid Period. The OMC permitted ordering officers
to select which vendors would receive solicitations. Participating OMC vendors
could not see the solicitations posted in the OMC unless they were a designated
recipient of the solicitation; therefore, vendors had no opportunity to protest if
they believed they were not given a fair opportunity to participate in a
solicitation. Additionally, the OMC did not have built-in restrictions on how
short of a period vendors were given to respond to the solicitations. Contracting
officers are required by FAR 5.203(b) to provide a reasonable opportunity to
respond to a solicitation. Unreasonable response times limit competition. Some
OMC awards were made within hours of the solicitation.

         Separation of Duties. The OMC permitted the ordering officer to select
the list of eligible vendors and conduct the solicitation. The contracting officer’s
role was to ratify the actions taken by the ordering officer. Accordingly, the
ordering officer could influence the award process by restricting eligible vendors.
Additionally, the ordering officers performed functions normally performed by a
contracting officer.

        Oversight. Initially, the contracting officer, who was responsible for
overseeing the system, was unable to provide a list of either the customers or
participating vendors who were using the system, or information on orders being
placed through the system, other than orders she had placed. After inquiring with
Networld and the Naval Postgraduate School, the contracting officer learned that
she could obtain that information from the on-line system. The lack of
continuous monitoring of the solicitations made through the OMC was an internal
control weakness.

      Contracting Practices. Inadequate oversight and other internal control
weaknesses contributed to what we believe were abusive contracting practices:

       •   Sixteen vendors to the OMC appeared to be Government employees or
           firms that appeared to be affiliated with Government employees.
           Awards to Government employees are prohibited by FAR Subpart 3.6
           and may result in violations of criminal statutes pertaining to
           Government ethics.

       •   Sole-source awards did not have required justifications.

       •   Awards were made to vendors that did not appear to be vendors for the
           commodities being sought. For example:

           - A contract for office furniture was awarded to a company that did
             not appear to be a furniture dealer, while another participating
             vendor that specialized in office furniture sales, Office Depot, was
             not given an opportunity to bid on the solicitation. The company
             that received the award did not have a commercial address, and the
             company’s central contractor registration did not indicate that it
             was a furniture dealer. The solicitation did not identify the type
             and quantity of furniture items being procured.

           - An order for armor protection for use on Army military vehicles
             located in combat zones was awarded to a Section 8(a) vendor
             specializing in software development and building construction.


                                     43
              The solicitation did not include any technical specifications for the
              armor protection, and the proposal did not identify a manufacturer.
              Staff of the Army Tank-automotive and Armaments Command
              told us that the company was not a recognized dealer in armor
              protection for military vehicles. Because the solicitation lacked
              specifications and the proposal did not identify the manufacturer,
              we could not determine whether the purchase created a safety issue
              for military personnel who relied on the armor for protection.

       •   Fair and reasonable prices were not paid for all purchases. We
           reviewed specified purchases and compared prices paid to vendors
           through the OMC with suggested retail prices and prices available
           through GSA schedules and found what we believed was overpricing.

We referred selected transactions to the DoD Deputy Inspector General for
Investigations and the Navy Acquisition Integrity Office for further review.
Certain matters were subsequently referred to the Naval Criminal Investigative
Service and the Naval Audit Service.

Legal Review of OMC Contract. The Southwest Acquisition Branch did not
obtain a legal review of the OMC prior to deploying the system. After the system
was deployed, the Deputy Assistant Secretary of the Navy for Acquisition
Management requested that DOI review legal issues pertaining to the OMC.
Subsequently, the DOI Solicitor did a legal review on October 3, 2002, and
identified several deficiencies that needed to be corrected. However, as of
August 2006, the contracting officer has not addressed the legal deficiencies. In
addition, we believe that the OMC contract raises several other complex legal
issues that have not been adequately recognized or addressed.

       •   Because the OMC contract required Networld to develop the OMC
           system at its own cost and did not require the Government to purchase
           a minimal amount or to make any commitment on its part, the contract
           may not be enforceable. For the contract to be binding, the minimum
           quantity in the contract must be more than a nominal quantity.

       •   Because the Networld contract treated all participating vendors as
           subcontractors to Networld, the legal authority for the Government to
           oversee any transactions made through the OMC is unclear. The FAR
           is not likely to apply to such transactions. Instead, competition
           between subcontractors is traditionally under the purview of the prime
           contractor, not the Government, and is subject to applicable State
           laws. This situation also raises questions on the ability of participating
           vendors to successfully protest unfair competitions because the
           Government generally declines to get involved with disputes between
           prime contractors and its subcontractors.

       •   Ordering agencies are precluded from making procurements from a
           performing agency that fails to comply with the Competition in
           Contracting Act (CICA) when contracting for a requirement
           [10 U.S.C. 2304(f)(5)(B); 41 U.S.C. 253(f)(5)(B)]. Executive
           agencies cannot contract without providing full and open competition
           unless one of the statutory exceptions listed in FAR 6.302 applies.
           Contracts awarded without full and open competition must cite the


                                     44
               applicable statutory exception. Because the level of competition under
               the OMC is restricted to the 952 participating vendors, and even those
               vendors do not have access to all the solicitations, and because none of
               the solicitations we reviewed cited exceptions to the CICA, we do not
               believe that the OMC complies with CICA requirements.

           •   FAR 2.101(b) states that the General Services Administration Web site
               FedBizOpps.gov is to be the single Government point-of-entry for
               Federal Government procurement opportunities over $25,000. The
               OMC did not comply with requirement.

           •   The contract with Networld had options to extend the contract until the
               year 2017. We understand the desire of the Southwest Acquisition
               Branch to provide adequate incentives for Networld to participate in
               the venture because Networld developed the system at its own
               expense. However, the contract period seemed excessive and had no
               mechanism for other vendors to compete against Networld in future
               years. This issue is discussed in further detail in finding A.

           •   The legal model for Networld as a prime contractor with participating
               vendors as subcontractors precludes contracting officers from
               incorporating standard and optional contract clauses into the individual
               orders awarded through the OMC. Contract clauses apply to the prime
               contractor and the FAR has no mechanism to make contract clauses
               applicable only to specific subcontractors. Contract clauses, when
               used appropriately, can protect both the Government’s and the
               contractor’s interest by clearly defining the terms and conditions of the
               solicitation. Additionally, permitting Networld to serve as a prime
               contractor for the broad array of supplies and services processed
               through the system did not appear to be within the scope of the
               contract. The contract was for Networld to implement and manage an
               Internet-based electronic storefront.

           •   The Networld contract did not have provisions requiring that data
               records pertaining to the solicitations be retained or protected as
               prescribed by FAR Subpart 4.7.

    Approval to Operate the OMC. Neither the Southwest Acquisition Branch nor
    the Naval Postgraduate School obtained approval from the agency head as
    required by FAR 4.502(b) before deploying the OMC. The Naval Postgraduate
    School told us that the President of the school had approved its operation. DOI
    senior acquisition management overseeing the Southwest Acquisition Branch told
    us that they were not aware that the system existed.


Procurements by the Naval Postgraduate School
    In August 2003, a lecturer at the Naval Postgraduate School applied to the OMC
    contracting officer for ordering officer authority under that contract. The
    contracting officer knew that the lecturer did not have a contracting officer
    warrant. However, because the lecturer had graduated from law school and had
    training equivalent to that required of a contracting officer, the contracting officer


                                          45
granted the lecturer ordering authority, with a $5 million limit on each
transaction. The contracting officer then decided in May 2005 to revoke the
lecturer’s ordering authority, citing the fact that he did not have a contracting
officer warrant as the reason for the revocation.

During his appointment, the lecturer awarded 1,616 contract actions totaling
almost $135 million through the OMC on behalf of the Naval Postgraduate
School and all of the Services. Table 14 summarizes the awards made by the
lecturer.




                                     46
    Table 14. Awards Made by a Naval Postgraduate School Lecturer Who
    Lacked a Contracting Officer Warrant
Activity                                                               Award Amount
Air Force Real Property Agency                                            $ 1,136,403.60
Air Force Directorate of Strategic Planning-AF/XPX                           1,529,690.28
Army Base Realignment and Closure Office                                       546,221.20
Army Central Technical Support Facility                                        569,070.30
Army National Guard, California                                                172,459.96
Army Office of Economic Manpower Analysis                                   10,131,687.74
Combating Terrorism Center                                                     103,255.00
Commander, Naval Surface Force, Atlantic Fleet                                 249,532.80
Commander, Navy Installations                                                5,884,142.66
Commander, Navy Region Southwest                                               288,815.96
Commander, Submarine Force, Atlantic Fleet                                      59,670.00
Commander, U.S. Army Dugway Proving Ground                                      25,000.00
Commander, U.S. Pacific Fleet                                                  153,245.00
Fleet Numerical Meteorology and Oceanography Center                         18,456,075.48
Fort Leavenworth Directorate of Installation Support                        22,075,977.94
Headquarters, 3rd Brigade, 91st Division                                       931,179.41
Headquarters, Fifth U.S. Army                                                2,203,112.28
Headquarters, Marine Corps                                                      78,336.00
Headquarters, U.S. Army Europe                                                 117,300.00
Joint Special Operations University                                             10,812.20
Marine Corps Air Station, Yuma, Arizona                                        151,136.58
Naval Air Depot, North Island                                                  350,000.00
Naval Facilities Engineering Command                                         5,624,878.19
Naval Health Research Center                                                   688,852.77
Naval Postgraduate School                                                   35,791,077.42
Naval Special Warfare Command                                                8,142,801.07
Naval Strike and Air Warfare Center                                          2,151,834.99
Naval Weapons Station Seal Beach                                                46,331.00
Navy Public Works Center                                                       365,254.96
Office of Naval Intelligence                                                   250,000.00
Office of the Under Secretary of Defense for Personnel and Readiness           300,000.00
Space and Naval Warfare Systems Command, Tampa                               7,240,711.49
U.S. Army Engineer District, Sacramento District                               239,686.56
U.S. Central Command Air Force                                                   8,073.50
U.S. Army 222d Base Support Battalion                                          757,723.14
U.S. Army Garrison, Hawaii                                                   4,754,053.71
U.S. Army Heidelberg Germany                                                 2,807,560.82
U.S. Naval Ship Repair Facility                                                268,506.17
U.S. Army Medical Department Center and School                                 113,147.84
 Total                                                                    $134,773,618.02



    Making purchases without a contracting warrant violates FAR 1.601. The awards
    made by the lecturer were not posted to the DD-350 system or the Federal


                                                       47
    Procurement Data System as required by FAR Subpart 4.6; therefore, DoD and
    DOI acquisition managers, the Office of Management and Budget, the Congress,
    and the public had limited ability to oversee these contracts. We referred the
    procurements made by the lecturer to the Navy Acquisition Integrity Office for
    further review.


Actions by Management
    On January 27, 2006, and February 13, 2006, we briefed the Naval Postgraduate
    School and the Southwest Acquisition Branch on the issues. Both the Southwest
    Acquisition Branch and the Naval Postgraduate School agreed to stop processing
    new orders using the OMC until corrective actions had been taken. In
    March 2006, the Naval Postgraduate School took the OMC offline and initiated
    the DITSCAP through the Space and Naval Warfare Systems Command. On
    August 29, 2006, the DITSCAP certification was completed. We commend
    management for taking action to correct the security accreditation problem;
    however, DoD should not continue to manage or use the OMC system because of
    the serious legal issues and other problems we found.


Recommendation, Management Comments, and Audit
  Response
    C. We recommend that the Under Secretary of Defense for Acquisition,
    Technology, and Logistics terminate DoD use of the Open Market Corridor
    system.

    Under Secretary of Defense for Acquisition, Technology, and Logistics
    Comments. The Director, Defense Procurement and Acquisition Policy
    provided comments on behalf of the Under Secretary of Defense for Acquisition,
    Technology, and Logistics. He concurred in principle with the recommendation.
    The Director stated that because the most recent option to extend the contract for
    the Open Market Corridor (July 2006) was not exercised and no new orders can
    be placed against that contract, terminating the use of the Open Market Corridor
    System was not necessary.

    Audit Response. The Director’s comments are responsive to the
    recommendation.




                                        48
                    D. Contract for Leased Office Space
                    The Counterintelligence Field Activity (CIFA) did not follow the required
                    procedures for obtaining office space in the National Capital Region
                    (NCR)7 before deciding to contract for leased space through the
                    GovWorks. As a result, its 10-year, $100 million lease was obtained
                    through a Section 8(a) contractor rather than the General Services
                    Administration as required by law. CIFA violated a myriad of statutes
                    including potential violations of the Antideficiency Act, and precluded the
                    required congressional review and approval process. The potential
                    Antideficiency Act violations stemmed from lack of authority to enter the
                    lease and lack of authority to alter the building, violation of the bona fide
                    needs rule, purpose violations, and obligations of appropriations for future
                    years. Additionally, other Government components who leased excess
                    space from CIFA also had committed potential Antideficiency Act
                    violations. Furthermore, two GSA appraisals of the CIFA lease
                    determined that CIFA may have paid up to $2.7 million more per year
                    than it would have cost if CIFA had obtained the same space through
                    GSA. Finally, the SBA determined that the contractor did not meet the
                    required size standards for the SBA and announced that it intends to
                    terminate the lease contract. The resulting dilemma is that CIFA cannot
                    make payments on its leased space without potentially violating the
                    Antideficiency Act, finding alternate suitable space capable of handling
                    CIFA special security requirements may take years, and its existing lease
                    could be terminated by SBA at any time.


Lease of Office Space for the Counterintelligence Field
  Activity
           We reviewed two contracts awarded by GovWorks to TKC Communications on
           behalf of CIFA.

           Contract 1435-04-03-RC-70941 was for a 10-year lease of commercial office
           space in Arlington, Virginia. The contract included monthly rent and other direct
           costs for a monthly facilities lease with nine option years. The award summary
           showed total price of $96,411,630; however, the contract amount was only
           $2,029,082.

           Contract 1435-04-03-CT-73024, initially awarded for $1,615,439, was for
           transition activities to include relocation of contractor staff and Government
           furnished equipment within buildings. The amount of the original contract was
           increased to $16,937,035.

           The contractor for the lease, TKC Communications, Inc., was a Section 8(a),
           Alaskan Native Corporation contractor. Alaskan Native Corporations have a
           special status among Section 8(a) contractors. Under 13 Code of Federal
7
    The NCR includes the District of Columbia; Montgomery and Prince George’s Counties in Maryland;
    Arlington, Fairfax, Loudoun, and Prince William Counties and the cities of Alexandria and Falls Church
    in Virginia; and all cities and other units of Government within those jurisdictions.



                                                     49
     Regulations (C.F.R.), section 124.506(b), Alaskan Native Corporations can
     receive sole-source contracts without having to compete for the award; they are
     not subject to the competition requirements under FAR 19.805. TKC
     Communications fulfilled the contract requirements by entering a lease agreement
     with Charles E. Smith and Company, which owned the office space in Arlington,
     Virginia, and subleasing that space to CIFA under a contract between DOI and
     TKC Communications. The lease contract also included charges for space
     alterations made by the TKC Communications for CIFA at the beginning of the
     lease.


DoD Requirements for Obtaining Office Space in the National
  Capital Region
     DoD Directive 5110.4, “Washington Headquarters Services (WHS),” October 19,
     2001, paragraph 7.4, makes the Washington Headquarters Services the principal
     DoD liaison with GSA for all administrative services and real property matters,
     including lease administration and enforcement in the NCR. DoD Instruction
     5305.5, “Space Management Procedures, National Capital Region,” June 14,
     1999, is the applicable guidance for obtaining space within the NCR and
     prescribes procedures for obtaining space. Space requests are to be submitted
     through the Washington Headquarters Services. DoD Instruction 5305.5 states
     that requests for space that exceed the Prospectus Threshold Authority, which the
     CIFA lease did, normally require about 3 years to process because of the need for
     coordination with GSA and the Office of Management and Budget, and the need
     for congressional approval.


Authority to Enter Lease
     The 41 C.F.R. Part 101 (known as the Federal Property Management Regulation)
     gives the GSA exclusive authority for leases. Title 10 U.S.C. 2676, “Acquisition:
     Limitation,” precludes Military Department leases without specific statutory
     authority.
            (a) No military department may acquire real property not owned by the
            United States unless the acquisition is expressly authorized by law. . .

     Meeting With GSA. On October 28, 2005, we met with the GSA Director,
     Leasing Policy and Performance Division about the TKC Communications
     contract. He told us that his office had not issued a delegation of procurement
     authority to CIFA for this project and that congressional approval would be
     needed to approve a lease of this size. He believed the TKC Communications
     contract was a lease under the guise of a service contract. He told us that GSA
     would not be willing to ratify the CIFA action.

     Legal Review of the Contract for Lease. The DOI Solicitor performed a legal
     review of the TKC Communications contract on June 12, 2003; the Solicitor
     completed a form with a check mark indicating that the contract was legally
     sufficient. The Solicitor told us that he had initially decided not to approve the
     contract, but after learning that a Department of Justice attorney had approved it,


                                              50
    decided to approve it. CIFA had asked the Chief Counsel of the U.S. Department
    of Justice, Foreign Terrorist Tracking Task Force, to review the proposed lease;
    the Chief Counsel concurred with use of the contractor to provide the office
    space.

    We reviewed the letter containing the Chief Counsel’s concurrences. It appears
    to us to be an acknowledgement of the requirement for leased space rather than a
    legal opinion. In any event, that office would not be the complete authority to
    provide a legal review on DoD leases.


Requirements for Congressional Approval
    Restrictions on Leases and Alterations That Exceed Prospectus Thresholds
    Authority. Title 40 U.S.C. 3307 establishes prospectus thresholds for Federal
    agencies that are subject to GSA authority. The thresholds apply to construction,
    alteration, purchase, and acquisition of any building to be used as a public
    building, and to lease any space for use for public purposes. The prospectus
    threshold value for each fiscal year is posted on the GSA Web site
    http://www.gsa.gov. If the value of a proposed lease or alterations to a building
    exceeds the thresholds, a prospectus has to be presented to the Senate and the
    House of Representatives for approval. Only GSA is authorized to enter into
    leases that exceed the prospectus thresholds.

    Leased Building Alterations. For FY 2003 and FY 2004, the period that
    building alterations were made to the CIFA leased space, the Prospectus
    Threshold Authority for alterations was $1.1066 million and $1.1450 million,
    respectively. The total cost of space alterations made by CIFA in FY 2003 was
    $14.7 million and at least $7.9 million in FY 2004. The $14.7 million alteration
    was part of contract 1435-04-03-RC-70941. The $7.9 million alteration was also
    made through TKC Communications but under contract 1435-04-03-CT-73024.

    Lease Thresholds. The Prospectus Threshold Authority for leases for FY 2003
    was $2.21 million per year. The CIFA lease agreement required lease payments
    of at least $6.575 million per year for 2004 and subsequent periods.

    By not going through GSA when contracting for the lease and space alterations,
    and because the cost of the lease and alterations exceeded the Prospectus
    Threshold Authority without congressional approval, CIFA potentially violated
    the Antideficiency Act for both the lease amounts and for the alterations to its
    leased space.

    Approval for Computer Space or National Defense Related Space. Title
    40 U.S.C. 3307(f)(1) prohibits Federal agencies from leasing any space to
    accommodate computer and telecommunications operations and secure or
    sensitive activities related to the national defense or security if the average annual
    net rental would exceed the prospectus threshold. However, Federal agencies
    may lease such space if the Administrator of General Services first determines
    that leasing such space is necessary to meet requirements that cannot be met in
    public buildings, and then submits that determination to the Committee on
    Environment and Public Works of the Senate and the Committee on



                                          51
     Transportation and Infrastructure of the House of Representatives in accordance
     with 40 U.S.C. 3307(f)(1).

     By not submitting the lease requirements pertaining to computer and
     telecommunications operations and national security through GSA, and because
     the lease exceeded the Prospectus Threshold Authority, CIFA potentially violated
     the Antideficiency Act. Additionally, because CIFA did not comply with these
     regulations, the Committee on Environment and Public Works of the Senate and
     the Committee on Transportation and Infrastructure of the House of
     Representatives were not able to review the lease.

     Restrictions on Leases for More Than $1.5 Million in Annual Rental Costs.
     Title 40 U.S.C. 3307, “Congressional approval of proposed projects,” states that
     resolutions are required by the Committee on Environment and Public Works of
     the Senate and the Committee on Transportation and Infrastructure of the House
     of Representatives before an appropriation can be made to construct or alter any
     building which involves a total expenditure in excess of $1.5 million or to lease
     any space at an average annual rental in excess of $1.5 million.

     Because the CIFA lease contract exceeded both $1.5 million thresholds in
     40 U.S.C. 3307, CIFA also violated this restriction with its lease and alterations.
     This provision further supports our conclusion that CIFA payments on the lease
     potentially violated the Antideficiency Act.

     Notification Requirements. Title 10 U.S.C. 2662(a)(1)(B) requires the
     Secretary of the Military Department to notify Congress of leases of real property
     that will be at an annual rental in excess of $750,000. The section requires a 30-
     day notice by providing a report about the proposed transaction to the Senate
     Armed Services Committee and the Committee on Armed Services of the House
     of Representatives. If the lease is made by or on behalf of an intelligence
     component of the DoD, the notification is also to be sent to the Permanent Select
     Committee on Intelligence of the House and the Select Committee on Intelligence
     of the Senate. The contract files did not contain copies of any such notification.


Potential Funding Violations Resulting From the Lease
  Contract
     As stated above, CIFA and DOI circumvented numerous laws in contracting for
     leased space. By not following the proper procedures, they entered into a lease
     without the legal authority to do so. Without a legal and authorized agreement,
     no basis exists to obligate and expend Government funds. Because Government
     funds have been obligated, DOI, CIFA, and other organizations renting the leased
     space may have potentially violated the Antideficiency Act. Also, any
     subsequent expenditure of Government funds for this rental space may result in
     additional Antideficiency Act violations. No future payments should be made
     until a legal basis exists to make the payments.




                                          52
     The contract with TKC Communications had a termination clause, effectively
     obligating the Government to make lease payments for at least a 12-month period
     and repayment of capital improvements. Therefore, the termination provision
     could obligate appropriations of future years, which would violate
     31 U.S.C. 1341(a)(1)(A) and the U.S. Constitution, Article I, Section 9.

     CIFA paid TKC Communications for its lease building alterations using O&M
     appropriated funds. CIFA should have used military construction funds for
     alterations of that magnitude, and military construction projects costing over
     $1.5 million have to be specifically approved by Congress. By not using military
     construction funds, CIFA potentially violated 31 U.S.C. 1301 (known as the
     “Purpose Statute”) and 10 U.S.C. 2805.

     The TKC Communications contract permitted CIFA to repay the costs for its
     building alterations incurred during FY 2003 over the life of the lease. In effect,
     the contractor made a loan of the funds to CIFA and permitted CIFA to repay the
     loan over time. The contract even had an amortization schedule showing interest
     charges. Interest charges are unallowable costs prohibited by FAR 31.205-20.
     Government agencies are required to follow the bona fide needs rule
     [31 U.S.C. 1502(a)] and CIFA should have paid for the alterations during the
     fiscal year in which the expenses were incurred. Obligations which require
     payments from appropriations which have not yet been provided by the Congress
     potentially violate 31 U.S.C. 1341(a)(1)(A) and the U.S. Constitution, Article I,
     Section 9.

     Moving Expenses Within the National Capital Region. Section 8020 of the
     Department of Defense Appropriations Act, 2003 (Public Law 107-248, House
     Report No. 5010) restricts use of funds exceeding $500,000 for relocations within
     the NCR unless waived by the Secretary of Defense. Restrictions on moving
     costs within the NCR have been a recurring section in Defense Appropriation
     Acts since FY 1991. DoD Instruction 5305.5, paragraph 5.2.1.2, requires DoD
     agencies to include a “$500,000 Move Certification” to Washington Headquarters
     Services with its request for space within the NCR. The Move Certification is the
     established control for Washington Headquarters Services to ensure that the
     planned moving costs are below the $500,000 threshold or that the Secretary of
     Defense or his designee has waived the restriction. On October 5, 2005, the
     Acting Deputy Secretary of Defense delegated responsibilities for actions
     pertaining to enforcement of Section 8020 to the Director, Administration and
     Management. Because CIFA did not submit its request through the Washington
     Headquarters Services as required, an independent party needs to determine the
     costs pertaining to the move and determine whether CIFA exceeded the threshold
     for relocation costs. If CIFA relocation costs exceeded the threshold, CIFA needs
     to either advise the Defense Committees of the breach or obtain a retroactive
     waiver of the moving expense restrictions from the Secretary of Defense or his
     designee.


Violation of SBA Size Standards
     We requested that the SBA Office of Government Contracting determine whether
     TKC Communications met SBA size restrictions imposed by the SBA “Table of
     Small Business Size Standards Matched to North American Industry


                                         53
    Classification System Codes.” SBA performed the analysis and concluded that
    TKC Communications did not meet the SBA size standards when it entered into
    the CIFA lease contract. As a result, on April 18, 2006, the Associate Deputy
    Administrator for Government Contracting and Business Development, SBA
    stated that SBA intends to terminate the contract for the convenience of the
    Government.


Appraisal of the CIFA Lease
    GSA Appraisals. We requested that the GSA Director, Leasing Policy and
    Performance Division, appraise the CIFA lease to determine whether the
    Government paid too much for the lease and whether GSA had available and
    suitable space in its inventory when the CIFA lease was signed. GSA appraisers
    used two approaches to appraise fair lease prices at the time that the lease was
    negotiated. The first approach was a standard appraisal that compared the space
    with comparable properties available for lease at the time. Using that approach,
    GSA appraisers concluded that comparable properties would rent for $36.93 per
    rentable square foot.

    The second approach compared existing offers to the Government in the
    Advanced Acquisition Program at the time of the lease. GSA recognized and
    made adjustments for differences between a traditional commercial lease and a
    lease under the Advanced Acquisition Program. GSA concluded that comparable
    properties were $31.87 per rentable square foot through the Advanced
    Acquisition Program. GSA determined that the TKC Communications lease to
    CIFA cost $44.82 per rentable square foot.

    GSA found that some of the CIFA lease terms were not clear about what costs
    were included in the base rent such as the base operating costs. According to
    GSA, the base rent was not determined from the structure of the CIFA lease.
    GSA stated that base rent includes the insurance, property management, equity,
    base construction, parking, basic lighting, basic electrical distribution, exterior,
    and windows. They also noted that base operating costs include utilities such as
    water, electric, gas, cleaning costs, trash removal, window cleaning, and
    maintenance. In an Advanced Acquisition Program offer, the base operating costs
    are always separate.

    GSA also observed the following differences between the CIFA lease through
    TKC Communications and a lease through the GSA Advanced Acquisition
    Program.

           •   In the CIFA lease, the base rent is subject to annual escalations.
               However, in an Advanced Acquisition Program offer, the base rent is a
               flat rate for the lease term.

           •   GSA concluded that the base operating expense rate of $10.59 per
               rentable square foot under the CIFA lease is very high compared with
               what they believed to be the typical occupancy rate of $5 to $7 per
               rentable square foot for basic office space. GSA also concluded that
               the base operating expense rate under the CIFA lease allowed pass-
               through of additional expenses, above the base amount, such as utility


                                        54
                rate hikes. In the Advanced Acquisition Program offer, the base
                operating expense rate increases are limited to the Consumer Price
                Index, thus shifting the risk of increases to the lessor rather than to
                CIFA.

            •   The Advanced Acquisition Program offer included a 3-percent broker
                commission which could be converted into 3 ½ months of free rent.
                Since no realtor is involved with finding lease space for the tenant in
                an Advanced Acquisition Program offer, the broker commission is
                incorporated into rent as an added benefit. GSA could not determine
                whether the CIFA lease included a 3-percent broker commission as in
                the Advanced Acquisition Program offer or whether a realtor was
                involved in locating the space, which would mean the realtor received
                the commission.

            •   The CIFA lease had a 12-month termination right. GSA noted that the
                cost to terminate might be included in the base rent but it was unclear
                from the lease.

     GSA determined that the CIFA lease cost was as much as $1.6 million to $2.7
     million more per year for its lease through TKC Communications than it would
     have cost through GSA.

     GSA believes the CIFA lease was high and that the lease will always be
     ambiguous concerning several key terms. They also pointed out that the problem
     is only partially the dollar-to-dollar comparative costs but also the potential risks
     and costs associated with the life of the CIFA lease.

     GovWorks Analysis. On June 23, 2006, we provided copies of the two
     appraisals to CIFA and subsequently permitted CIFA to provide copies of the
     appraisals to GovWorks. GovWorks disagreed with the appraisal results and
     stated that certain costs were included in the lease agreement that were not
     considered by the appraisal. On August 21, 2006, GovWorks provided us with a
     comparative analysis of the TKC lease with other leases available at the time.
     The analysis was performed by a Section 8(a) contractor from Bethesda,
     Maryland, that was licensed as a real estate broker in Virginia, Maryland, and the
     District of Columbia. The analysis concluded that the TKC lease “was extremely
     fair and reasonable.” The analysis did not indicate that it was performed in
     accordance with Uniform Standards of Professional Appraisal Practice, nor did it
     indicate that it complied with the Department of Justice Uniform Appraisal
     Standards for Federal Land Acquisition. Additionally, the contractor was not a
     licensed appraiser in Maryland or Virginia, and was not qualified by the SBA to
     perform appraisals. Because of the deficiencies in the analysis procedures and the
     qualifications of the company and its staff, we cannot draw any conclusions from
     the analysis.


Other Issues
     Because the leased space was larger than it needed, CIFA made the excess space
     available to the Air Force Office of Special Investigations, the Naval Criminal
     Investigative Service, and another non-DoD intelligence component. The


                                          55
     components paid a portion of the CIFA lease cost by sending MIPRs directly to
     GovWorks or directly to CIFA. The payments by those components also
     potentially violated the Antideficiency Act because CIFA did not obtain the legal
     authority to enter into the original lease.

     The GovWorks contracting officer lacked the special warrant required by DOI for
     lease agreements. The contracting officer had a warrant for Level IV Delegation
     of Authority but did not have the space lease warrant required by DOI.


Referral for Investigation
     On May 18, 2006, and on May 30, 2006, we briefed senior management and staff
     of CIFA on our audit findings. We advised CIFA during the briefing that it had
     potentially violated the Antideficiency Act and warned that any future payments
     made on the lease could potentially result in additional violations of the
     Antideficiency Act. Specifically, a slide used for both briefings stated:
            We believe CIFA and GovWorks lacked authority to enter the lease.
            This resulted in potential violations of the Antideficiency Act and other
            laws. Payments by CIFA co-tenants (NCIS, AFOSI, and a non-DoD
            Intelligence component) may also result in violations. Accordingly,
            the CIFA should not make new obligations to GovWorks for the
            office space. If payments continue, further potential violations of
            the Antideficiency Act occur. [emphasis added]

     Subsequently, we learned that CIFA had continued to make lease payments,
     totaling $2.9 million, from June through August 2006 for the lease. Because we
     believe that CIFA made the subsequent obligations with the full knowledge that
     they may violate the Antideficiency Act, and 31 U.S.C. 1350 establishes criminal
     sanctions against willful violations, we referred this matter to the Deputy
     Inspector General for Investigations for further review.


Management Comments on the Finding and Audit Response
     Counterintelligence Field Activity Comments on the Finding. The Acting
     Director of CIFA stated that the potential violations identified in the report
     resulted from IG conclusions that CIFA had failed to comply with procedural
     rules applicable to DoD activities for leases of real estate. The finding is based on
     the fact that CIFA acquired its office space in Crystal Square 5, Arlington,
     Virginia, using services contracts obtained by GovWorks, rather than occupancy
     agreements with GSA. The Acting Director stated that although outside the scope
     of the report, the Defense Information Technology Contracting Organization had
     obtained a similar services contract for space in Crystal Square 5 on behalf of
     CIFA. In determining the applicability of rules for Government leases, there is no
     Government lease for the space CIFA is occupying. GovWorks and the Defense
     Information Technology Contracting Organization—both are charged by statute
     and regulation with ensuring that contracts comply with law—maintain they did
     not err in obtaining office space for CIFA though services contracts.



                                              56
The Acting Director stated that because the contracts did not involve a
Government leasehold, the congressional review and approval process did not
apply. Instead, TKC, an Alaskan Native enterprise, leased the space and the
SBA, on behalf of TKC, entered into services contracts with GovWorks for
CIFA’s use of the leased space. The Defense Information Technology
Contracting Organization contracted directly with TKC for CIFA’s other space.
CIFA agreed to reimburse GovWorks and the Defense Information Technology
Contracting Organization with MIPRs. Legal counsel at both GovWorks and the
Defense Information Technology Contracting Organization did not object to this
acquisition strategy. The Acting Director believed that the report imprecisely
refers to this contractual arrangement as subleasing.

The Acting Director stated that no funds in excess of amounts available in its
O&M appropriations were obligated by CIFA to acquire its space. He stated that
the O&M funds that CIFA expended to reimburse GovWorks and the Defense
Information Technology Contracting Organization were from the same
appropriation that would have been used to reimburse GSA for leased space under
an occupancy agreement. Therefore, he believes there were no problems with
obligating that appropriation.

The Acting Director stated that the CIFA decision to use commercially leased
space under Government services contracts was the result of an unusual set of
circumstances. CIFA, its predecessor Office of the Secretary of Defense
elements, and the defense contractors providing mission support to those agencies
were already in contractor-furnished office space located in Crystal City buildings
that CIFA currently occupies at the time CIFA was created in the wake of the
September 11 terror attacks. CIFA (along with its predecessor Office of the
Secretary of Defense element) was also serving as the host for, and working
closely with the Federal Bureau of Investigations Foreign Terrorist Tracking Task
Force created on October 29, 2001. Some limited GSA leased space was also
available and being used by CIFA and the Task Force. At the time, though, more
than 80 percent of CIFA employees were contractors, as were in any of the Task
Force workers. CIFA sought to consolidate its operation by having this mixed
work force located primarily in contractor-furnished space. The OIG report, in
determining that the GSA lease model should have been followed to meet CIFA
space requirements, does not address the impact of the high ratio of contractor
personnel who were supporting the mission. This is an issue for consideration in
the Antideficiency Act violation reviews.

The Acting Director stated that the report suggests that the termination provisions
of the contract, calling for payment of unamortized tenant improvement
allowances and 12 months’ rent, potentially violate the Antideficiency Act
because it obligates funds from future year appropriations. He stated that in fact,
these contracts treat each option year or month as a new order. As severable
services contracts, CIFA funds the orders up to 12 months with its current year
appropriation. If CIFA elects to terminate its lease, the contracting office must
issue notice at least 12 months prior. At that time, CIFA will use the current
appropriation to reimburse GovWorks and Defense Information Technology
Contracting Organization for services received during the period covered by the
termination notice. The unamortized buildout allowance is a contingent liability
and funds are not obligated against it until a certain amount is ascertained. The
appropriation available at the time the notice is issued will be obligated to fund
the reimbursement of the unamortized concessions to GovWorks and Defense


                                    57
Information Technology Contracting Organization. The Acting Director believed
that this financial arrangement is consistent with the way GSA charges its tenants
who vacate space that has been obtained under a non-cancelable lease prior to
eliding the occupancy agreement term.

Regarding the potential violation of the Antideficiency Act involving Military
Construction funds, the Acting Director stated that he did not believe CIFA would
have to use Military Construction funds. GovWorks and the Defense Information
Technology Contracting Organization were responsible for paying the contractor,
not CIFA. CIFA only reimburses the contracting offices. The Acting Director
stated that the CIFA preliminary review of the potential Antideficiency Act
violation addressed this funding issue. Because this issue has not been factually
resolved, and the Government does not have a leasehold interest in this
contractor-furnished space, final determination of a potential Antideficiency Act
violation will have to wait for the Comptroller review.

The Acting Director stated that use of loans to fund tenant improvements was a
common practice in the commercial real estate business, and GSA employs this
practice when leasing space for Government tenants. GSA regulations allow the
agency to add the cost of the amortized tenant improvements to the shell rent in
its occupancy agreements, allowing the lessor to include interest in the
amortization amount. The Acting Director stated that this issue was also covered
in the preliminary review submitted to the DoD Comptroller.

The Air Force Office of Special Investigations was occupying space in Crystal
Square 5 when the Office of the Secretary of Defense element that eventually
became CIFA (Joint Counterintelligence Analysis Group) first moved into the
building. Subsequently, at the request of the Air Force Office of Special
Investigations, additional adjacent space was acquired for Air Force use. The
space occupied by the Naval Criminal Investigative Service and by the non-DoD
Federal counterintelligence activity was also acquired at request of the Air Force
Office of Special Investigations. The Acting Director believes the statement in
the report that CIFA acquired this space in excess of its bona fide needs and made
it available to these other organizations is factually incorrect.

Audit Response. The Acting Director stated that because the contract for the
CIFA leased space was not signed by a Government agency, it did not violate
statutes giving the GSA exclusive authority for leasing Government space.
Additionally, the Acting Director believed that our use of the term “subleasing”
was incorrect. We disagree. The GovWorks contract made the TKC
Communications lease part of the GovWorks contract. Additionally, the GSA
Director, Leasing Policy reviewed the GovWorks contract and termed it “a lease
under the guise of a service contract.” CIFA is now using and paying GovWorks
for the space that TKC Communications leased from a third party. We conclude
that the appropriate legal term for this arrangement is “sublease.”

The Acting Director also stated that the high percentage of contractor personnel at
CIFA should have been considered when determining whether GSA was required
to enter the lease. We do not believe that the ratio of contractor to Government
employees was an appropriate or authorized factor in whether GSA was required
to make the lease. This ratio conferred no legal authority on CIFA to enter a
sublease.



                                    58
In fact, CIFA has previously made this argument to GSA, and GSA rejected this
argument. A May 27, 2003, e-mail from a CIFA contractor asked for clarification
on whether the GSA rules were applicable to space for contractor personnel. The
contractor’s e-mail stated:
       …We have been working with GovWorks for many months now to
       obtain a lease for our contractor work force. They want a Delegation
       of Procurement Authority before they allow their contractor, TKC
       Communications, to sign the lease with Charles E. Smith for the space
       that we need here in Crystal City…

       2. CIFA is currently located throughout different buildings in Crystal
       City, VA.      This haphazard arrangement results in operational
       inefficiency and direct cost to the government in time spent traveling
       between meetings. In order to perform CIFA’s mission more
       efficiently and expediently, [the] Director, CIFA has determined that
       CIFA must consolidate into one facility. In addition, CIFA continues
       to grow rapidly to respond to the dynamic threat environment created
       by world events. CIFA must quickly obtain space to accommodate
       additional personnel.

       3. CIFA is heavily outsourced; comprised of 90% contractor staff and
       10% government. CIFA contractor staff is derived from in excess of
       30 separate contracts. While CIFA’s government personnel currently
       occupy GSA and specialty contractor-leased space, CIFA’s contractor
       personnel require space proximately located to CIFA Headquarters.

       We are seeking a confirmation that GSA does not lease space for
       contractors and therefore a delegation of procurement authority is not
       required. We think that this, either in writing or verbally to the
       GovWorks/DOI staff, will allow us to proceed. . .

The Deputy Director, Metropolitan Service Center, GSA, responded on the same
day as follows:
       Although GSA does lease space for DoD elements that house
       contractor personnel, we do not provide space directly for contractor
       companies, they lease their own space.

       If a private corporation that is under contract to the Government is
       going to sign as the lessee, then there is a private sector deal and not a
       government deal and GSA and all our regulation are not involved. If
       any direct Government entity is going to sign as the lessee, then all
       Federal regulations and delegations of authority are involved.

We believe that the question posed to GSA was somewhat misleading. The
e-mail to GSA presented the situation as a requirement for space solely for
contractors rather than space for both CIFA and its contractor personnel. It
appeared that CIFA elected to interpret the GSA guidance as justification that
CIFA would not need to obtain a Delegation of Lease Authority from GSA as
long as no Federal agency signed the lease. In fact, as we discuss in the finding,
the lease was too large to permit use of a Delegation of Lease Authority and GSA
would have had to enter into the lease itself.



                                          59
On May 28, 2003, the CIFA Director sent a letter to the Team Leader,
Procurement Operations Branch, GovWorks stating that CIFA had contacted the
Deputy Director of GSA regarding CIFA’s need to collocate with CIFA
contractor personnel. The CIFA Director also provided the GovWorks Team
Leader with the GSA Deputy Director’s statements from the May 27, 2003, e-
mail.

We believe that this practice of using a contractor to obtain Government space
avoids congressional and senior DoD oversight and could allow other DoD
activities to avoid similar oversight. Additionally, this practice circumvents the
review process designed by Congress and makes it difficult to maintain public
confidence in the DoD procurement process.

On May 11, 2005, the Deputy Director, Space Policy and Acquisition Directorate,
Washington Headquarters Services asked GSA in an e-mail about the guidance
they provided to CIFA on its lease. In an e-mail response, the GSA Deputy
Director of Metropolitan Service Center said:
       They probably talked to me. As I recall I was asked if a private
       company leased space for a government contract was that ok, and I said
       yes as a private company is a private company. They also asked if a
       government agency had a company do a lease for them was it ok and I
       said no. And I told them they needed to talk to WHS [Washington
       Headquarters Services] before they did any leasing.

       I have been expecting this to hit the auditors someday. Although they
       said they talked to a "Deputy Director at Metropolitan Service Center",
       they did not get a delegation of authority, and statement verbally or in
       writing that what they described was ok with either GSA or WHS, and
       what they did get is direction to go through the process.

       I am ready to talk to any IG or other entity to testify as to what I said
       when asked. As you recall I even spoke with the Director of GSA IT
       [Information Technology] in Auburn, Washington to advise her that
       DOD-WHS and we at Metropolitan were deeply concerned with the
       leases we were hearing about going through IT contracts and the pain
       they caused when that happened. . . .

We also spoke with GSA Deputy Director of the Metropolitan Service Center.
He had since retired from the Government but recalled his discussion with CIFA
and his e-mail to the Washington Headquarters Services. He also told us that he
had met with the CIFA staff to explain the GSA rules, including the Title 10
requirements and the requirements for a prospectus. The staff told him that they
would take that information back to CIFA management. He said that he was
disappointed that CIFA had elected to go forward with its lease nevertheless.

We were unable to determine the exact chain of events between the initial inquiry
to GSA and the subsequent lease arranged through GovWorks. The GovWorks
contracting officer no longer worked at GovWorks and could not be located. Her
replacement had since retired. Also, key personnel at CIFA no longer worked at
CIFA. However, it appeared that CIFA was provided sound advice on the rules
from GSA but elected to ignore them.




                                         60
           In response to our draft audit report, the Acting Director also stated that because
           CIFA used O&M funding, which is the same type of funding that would have
           been used had CIFA contracted through GSA, and because it did not exceed its
           O&M appropriation, he did not believe that he had violated the Antideficiency
           Act. This statement, however, ignores a key component of fiscal law—
           authorization.
                    A federal agency is a creature of law and can function only to the
                    extent authorized by law. The Supreme Court has expressed what is
                    perhaps the quintessential axiom of “appropriations law” as follows:

                           “The established rule is that the expenditure of public
                           funds is proper only when authorized by Congress, not
                           that public funds may be expended unless prohibited by
                           Congress.”8

           The statutes we cite in finding D show that the Congress specifically prohibited
           agencies from making their own leases without GSA involvement. Leases
           expected to be below the prospectus threshold authority can be made only with a
           GSA delegation of lease authority; leases expected to be above that threshold can
           be made only by the GSA.

           CIFA was not authorized to obligate funds because they had no authority to enter
           into a sublease. By obligating Government funds, they violated 31 U.S.C.
           1501(a)(1)(A), which requires such authority prior to obligating funds, and
           31 U.S.C. 1502(a), which requires compliance with 31 U.S.C. 1501.

           Additionally, even if CIFA had the necessary congressional authorization, another
           Supreme Court ruling9 precludes the use of 1-year appropriated funds (that is,
           O&M funds) to enter a lease beyond a 1-year period. In that Supreme Court case,
           an agency had entered into a long-term lease for office space with 1-year funds,
           but the contract specifically provided that payments for periods after the first year
           were subject to the availability of future appropriations. The court rejected the
           theory that the lease was binding on the Government only for 1 fiscal year,
           stating,
                    And since at the time they were made there was no appropriation
                    available for the payment of rent after first fiscal year, it is clear that in
                    so far as their terms extended beyond that year they were in violation
                    of the express provisions of the [Antideficiency Act]. . .

           GSA has authority under 40 U.S.C. 490(e) to obligate funds for its multiyear
           leases one year at a time. CIFA does not have this authority.

           As additional support for the CIFA lease procurement strategy, the Acting
           Director noted that the Defense Information Technology Contracting

8
    United States v. MacCollom, 426 U.S. 317, 321 (1976).
9
    Leiter v. United States, 271 U.S. 204 (1926)



                                                         61
    Organization had entered a similar lease on behalf of CIFA. The Defense
    Information Technology Contracting Organization lease of real property through
    a contractor is outside the scope of this audit; however, we will consider that
    contract a subject for review in our future audits.

    The Acting Director also questioned whether Military Construction appropriated
    funds were required for the building improvements made by TKC
    Communications. He also questioned whether CIFA had violated the bona fide
    needs rule with the TKC loan and the termination clause within the contract. We
    presume that these arguments are part of the CIFA review of the potential
    Antideficiency Act violations identified in the finding. If so, the merit of those
    arguments will be evaluated by the Office of the Under Secretary of Defense
    (Comptroller)/Chief Financial Officer and its legal counsel. We will review the
    General Counsel’s opinion when it is released.

    The DOI Inspector General addressed the role of GovWorks in the CIFA leased
    space contract in Report No. X-IN-MOA-0018-2005, “Audit of FY2005
    Department of the Interior Purchases Made on Behalf of the Department of
    Defense,” January 9, 2007.


Recommendations, Management Comments, and Audit
  Response
    Recommendations for the Under Secretary of Defense (Comptroller)/Chief
    Financial Officer to initiate preliminary reviews of Antideficiency Act violations
    relating to lease payments and building alterations for the CIFA lease are included
    in DoD IG Report No. D-2007-042, “Potential Antideficiency Act Violations on
    Purchases Made Through Non-DoD Agencies,” January 2, 2007.

    D.1. We recommend that the Deputy Under Secretary of Defense for
    Intelligence:

           a. Provide notice to the General Services Administration,
    Washington Headquarters Services, and the various affected congressional
    committees of the Counterintelligence Field Activity’s failure to follow
    prescribed procedures when it obtained its office space in Arlington,
    Virginia. The congressional notice should include the Defense Committees,
    the Intelligence Committees, the Appropriations Committees, the Senate
    Committee on Environment and Public Works, and the House Committee on
    Transportation and Infrastructure.

            b. Form an action committee to include representatives from the
    Counterintelligence Field Activity and affected agencies that use the
    Counterintelligence Field Activity space that can assess the issues, identify
    options available to the Counterintelligence Field Activity and its co-tenants
    for suitable office space, and make recommendations on the best strategy
    that will result in the least disruption to the Counterintelligence Field
    Activity and co-tenant’s missions and that will mitigate any potential losses
    to DoD from termination of the Counterintelligence Field Activity lease
    contract.



                                        62
Deputy Under Secretary of Defense for Intelligence Comments. The Deputy
Under Secretary of Defense for Counterintelligence and Security provided
comments on behalf of the Deputy Under Secretary of Defense for Intelligence.
He stated that the significant disparity between the draft audit report and the
CIFA response to the report’s finding precluded him from commenting at this
time. When those differences are resolved, the Deputy Under Secretary agreed to
provide notification of actions taken.

Audit Response. The Deputy Under Secretary’s comments were responsive. We
believe that the statutory requirements pertaining to real property leases and the
potential impact of not following those requirements is clear. CIFA had no
statutory authority to enter into a lease agreement. The way CIFA obtained the
lease circumvented the congressional review and approval process and violated
fiscal law. Resolving this dilemma may require legislative relief. It is critical for
the Deputy Under Secretary and the CIFA to quickly develop a plan of action and
to consult with the respective congressional committees for a possible resolution.

Nevertheless, the new General Counsel for CIFA advised us that the CIFA legal
analysis on these issues has been submitted to the Under Secretary of Defense
(Comptroller)/Chief Financial Officer for a decision. Once their General Counsel
makes that legal determination, we believe the Under Secretary of Defense for
Intelligence will need to consult with Congress on a suitable remedy.

D.2. We recommend that the Director, Counterintelligence Field Activity:

       a. Determine whether the Counterintelligence Field Activity violated
funding restrictions imposed by Section 8020 of Defense Appropriation Act,
2003 and any other fiscal year in which relocation expenses were incurred. If
such a violation occurred, and a waiver to the restriction cannot be obtained
retroactively from the Secretary of Defense or his designee and provided to
the Congressional Defense Committees as required:

       (1) Provide notification to the Defense Committees of Congress that
the violation occurred.

      (2) Conduct an Antideficiency Act investigation in accordance with
volume 14 of the Financial Management Regulation.

Counterintelligence Field Activity Comments. The Acting Director of the
Counterintelligence Field Activity neither concurred nor nonconcurred with the
recommendation. He questioned whether the statutory restrictions were
applicable to CIFA because CIFA was a new organization at the time and it was
not clear to CIFA that the restriction applied to newly formed organizations.
Also, the Acting Director stated that CIFA has been in the same building it and its
predecessor Office of the Secretary of Defense element had occupied from the
beginning. Nevertheless, the CIFA preliminary analysis concluded that
payments to TKC to move equipment and furnishings were below the $500,000
threshold. Subsequently, however, the Washington Headquarters Services had
told CIFA that not all costs were considered in the CIFA initial analysis. As a
result, the CIFA investigation on whether the $500,000 threshold had been
breached was ongoing.




                                     63
Audit Response. The Acting Director’s comments were responsive. The
applicability of the threshold to new organizations and the costs that should be
recognized in that analysis are decisions that should be made by the Washington
Headquarters Services based on advice from its legal counsel.

D.3. We recommend that the Directors of Counterintelligence Field Activity,
Naval Criminal Investigative Service, and the Air Force Office of Special
Investigations:

      a. Cease payments of funds under contract numbers 1435-04-03-CT-
73024 and 1435-04-03-RC-70941, to avoid further potential violations of the
Antideficiency Act.

     b. Submit a request for alternate office space to Washington
Headquarters Services as required by DoD Instruction 5305.5, “Space
Management Procedures, National Capital Region,” June 14, 1999.

Counterintelligence Field Activity Comments. The Acting Director of CIFA
neither concurred nor nonconcurred with the recommendation. The Acting
Director stated that the report attributes a number of potential Antideficiency Act
violations to the procedures employed. CIFA promptly initiated a preliminary
review of the potential violations after receiving the IG briefing. That review
provided documentation of the transactions and sought to identify those
procedural irregularities that might rise to the level of Antideficiency Act
violations. On August 25, 2006, the CIFA preliminary review was forwarded to
the DoD Comptroller. If the DoD Comptroller determines there is evidence of
potential Antideficiency Act violations, she will direct that a formal investigation
be conducted. CIFA anticipates that a review of its preliminary evaluation will
resolve these issues.

Immediately following the OIG briefing to senior staff and management in May
2006, CIFA began working with Washington Headquarters Services and GSA to
find a resolution consistent with the finding. CIFA provided data to document its
space requirements to Washington Headquarters Services, which forwarded the
space request to GSA; GSA is reviewing the request. Because of Base
Realignment and Closure Commission 2005, CIFA is scheduled to move to
Quantico, Virginia, by 2011. GSA has not ruled out the possibility of taking over
the lease for the space occupied by CIFA. Other DoD agencies in Crystal
Square 5 are working directly with the Washington Headquarters Services; the
non-DoD agency is making its arrangements with GSA.

The Acting Director stated that the necessary reviews are underway to determine
the extent to which violations of the Antideficiency Act may have occurred.
Where violations are found, CIFA will take appropriate action.

The Acting Director stated that CIFA was advised that the SBA no longer plans to
terminate its contract with TKC. Unless otherwise directed by the DoD
Comptroller or the Under Secretary of Defense for Intelligence, CIFA does not
intend to stop reimbursing the Government contracting offices for payments to
TKC. He believes that until there is a comprehensive plan in place, unilateral
action of that magnitude would likely create more problems than it would solve,
especially in view of the SBA decision.



                                     64
Audit Response. The Acting Director’s comments were responsive. In our
opinion, resolving this problem will not be easy and may not be possible without
legislative relief. The Acting Director also stated in his comments that the OIG
was aware of the CIFA lease since 2004 but had not raised this as an issue until
now. Our audit began during calendar year 2005 and the TKC lease was one of
several contracts selected for review.

According to CIFA, SBA does not plan to terminate the TKC contract. DoD has
documentation from SBA which indicates that SBA will terminate the contract.
DoD has not received documentation stating otherwise from the SBA. Regardless
of whether SBA terminates the lease, every lease payment made by CIFA is
another potential Antideficiency Act violation.

We did not receive comments on Recommendation D.3. from the Naval Criminal
Investigative Service or the Air Force Office of Special Investigations.
Therefore, we request they provide comments in response to the final report.




                                   65
            E. Joint Interoperability Test Command
            Southwest Acquisition Branch contracting officers did not follow FAR,
            DFARS, and financial management regulations when awarding purchases
            for the Joint Interoperability Test Command (JITC) under a
            multiple-award omnibus contract valued at $1 billion. Southwest
            Acquisition Branch contracting officers:

                •   did not provide multiple awardees a fair opportunity to be
                    considered because the contracting officers were not involved at
                    all in the contractor selection process,

                •   did not make price reasonableness determinations for any of the
                    orders, and

                •   delegated too much authority to the contracting officer’s
                    representative and permitted the contracting officer’s
                    representative to perform functions that the contracting officer
                    should have performed.

            As a result, the JITC did not comply with Economy Act requirements and
            did not meet requirements of 31 U.S.C. 1501(a) for creating a valid
            obligation. Additionally, there is no assurance that the prices DoD is
            paying under this $1 billion, multiple-award contract are fair and
            reasonable or that the multiple-award contracts are being used properly.


Criteria
     FAR 16.504(c), “Multiple-Award Preference,” requires the contracting officer to
     determine whether multiple awards are appropriate as part of acquisition
     planning. The contracting officer must document the decision whether or not to
     use multiple awards in the acquisition plan or contract file.

     FAR 16.505(b)(1), “Fair Opportunity,” requires the contracting officer to provide
     each awardee a fair opportunity to be considered for each order exceeding $2,500
     issued under multiple delivery-order contracts or multiple task-order contracts.

     FAR 16.505(b)(4), “Decision Documentation for Orders,” requires the
     contracting officer to document in the contract file the rationale for placement and
     price of each order, including the basis for award and the rationale for any trade-
     offs among cost or price and noncost considerations in making the award
     decision. This documentation does not have to quantify the trade-offs that led to
     the decision. The contract file needs to identify the basis for exceptions to the fair
     opportunity process. If the agency uses the logical follow-on exception, the
     rationale has to describe a logical relationship between the initial order and the
     follow-on (for example, in terms of scope, period performance, or value).

     FAR 15.404-1, “Proposal Analyses Techniques,” states that the contracting
     officer must evaluate the reasonableness of the offered prices.



                                          66
    FAR 15.402, “Pricing Policy,” states that contracting officers must purchase
    supplies and services from responsible sources at fair and reasonable prices.

    FAR 15.406-3, “Documenting the Negotiation,” states that the contracting officer
    must document in the contract file the principal elements of the negotiation
    agreement, including fair and reasonable pricing.

    FAR 13.106-3, “Award and Documentation,” states that before making award, the
    contracting officer must determine that the proposed price is fair and reasonable.

    DFARS 201.602-2, “Responsibilities,” permits contracting officers to designate
    qualified personnel as their authorized representatives to assist in the technical
    monitoring or administration of a contract. A contracting officer’s representative
    (COR) must be designated in writing. The contracting officer must provide a
    copy of this designation to the contractor and the contract administration office
    specifying the extent of the COR authority to act on behalf of the contracting
    officer. The contracting officer may not delegate authority to make any
    commitments or changes that affect price, quality, quantity, delivery, or other
    terms and conditions of the contract.


Background
    JITC is a component of the Defense Information Systems Agency (DISA) and is
    located at Fort Huachuca, Arizona. JITC has no contracting officers of its own at
    Fort Huachuca and relies on the Southwest Acquisition Branch for its contracting
    support. JITC supports the warfighters’ efforts to manage information on and off
    the battlefield. JITC responsibilities include:

       •   being an independent operational test and evaluation assessor of DISA and
           other DoD Command, Control, Communications, Computers, and
           Intelligence acquisitions;

       •   identifying and solving combat support systems interoperability
           deficiencies;

       •   providing joint interoperability testing, evaluation, and certification;

       •   bringing interoperability support, operational field assessments, and
           technical assistance to the combatant commands, Services, and agencies;
           and

       •   providing training on Command, Control, Communications, Computers,
           and Intelligence systems, as appropriate.

    On October 9, 2001, the DOI National Business Center, Acquisition and Property
    Management Services Division, Southwest Acquisition Branch awarded three
    contracts (NBCHC020001, NBCHC020002, and NBCHC020003), under a
    multiple-award arrangement on behalf of JITC. The purpose of these multiple-
    award contracts was to provide JITC with administrative, testing, and engineering
    support required to perform its missions and functions. The period of
    performance included a 2-year base period and three 2-year option periods (total


                                         67
    8 years). When we began the audit in August 2005, the contracts were in the first
    option period, which expired on February 28, 2006. If all options are exercised
    on all three contracts, the total maximum contract amount will be slightly less
    than $1 billion. The total amount obligated on all three contracts through FY
    2005 was slightly more than $300 million. The total amount obligated as of
    July 2006 was slightly more than $411 million.

    Multiple-award contracts are normally indefinite-delivery, indefinite-quantity
    contracts. Contracting officers make purchases by issuing delivery and task
    orders. The procedures under FAR Subpart 16.5 apply to multiple-award
    contracts and are designed for the use of delivery orders and task orders. Before
    contracting officers award multiple-award contracts, they are required to
    document whether a multiple-award contract is suitable. After awarding the
    contracts, contracting officers must provide fair opportunity to all contractors for
    orders issued under the multiple-award contracts, or cite one of four exceptions to
    fair opportunity.


Fair Opportunity
    FAR 16.505(b) states that the contracting officer must provide each awardee a fair
    opportunity to be considered for each order exceeding $2,500 issued under
    multiple delivery-order contracts or multiple task-order contracts. The contract
    file needs to identify the basis for exceptions to the fair opportunity process. If
    the agency uses the logical follow-on exception, the rationale has to describe a
    logical relationship between the initial order and the follow-on (for example, in
    terms of scope, period performance, or value).

    Section H.4 of the multiple-award contracts states that the Government, not the
    contracting officer, will give each contractor an opportunity to compete for orders
    of over $2,500. Use of the word “Government” instead of the words “contracting
    officer” is misleading.

    Southwest Acquisition Branch contracting officials did not comply with
    FAR 16.505(b) and did not make fair opportunity for individual purchases under
    the omnibus multiple-award contracts. In fact, the contracting officer delegated
    the entire contractor selection process for individual purchases to the COR.

    The Southwest Acquisition Branch contracting officer stated that she was not
    involved in the contractor selection process for individual purchases made under
    the multiple-award contracts. A Southwest Acquisition Branch chief also stated
    that contracting officers had not made fair opportunity determinations for
    individual purchases under the multiple-award contracts from the time the
    contracts were awarded on October 9, 2001, through June 2006.


Price Reasonableness Determinations
    FAR 16.505(b)(4), “Decision Documentation for Orders” states that the
    contracting officer shall document in the contract file the rationale for placement
    and price of each order, including the basis for award and the rationale for any


                                         68
     trade-offs among cost or price and noncost considerations in making the award
     decision. This documentation need not quantify the trade-offs that led to the
     decision. The contract file must also identify the basis for using an exception to
     the fair opportunity process. If the agency uses the logical follow-on exception,
     the rationale must describe why the relationship between the initial order and the
     follow-on is logical (for example, in terms of scope, period of performance, or
     value).

     In addition to not performing fair opportunity analyses, Southwest Acquisition
     Branch contracting officers also did not make price reasonableness
     determinations for individual purchases of goods and services under the multiple
     award contracts. As of July 2006, individual purchases valued at approximately
     $411 million of the overall $1 billion contracts have been awarded without fair
     opportunity and price reasonableness determinations made by contracting
     officers.


Contracting Officer Responsibilities
     DFARS 201.602-2, “Responsibilities,” permits contracting officers to designate
     qualified personnel as their authorized representatives to assist in the technical
     monitoring or administration of a contract. The contracting officer must
     designate the COR in writing and must provide a copy of that designation to the
     contractor and the contract administration office. The designation must specify
     the extent of the COR authority to act on behalf of the contracting officer. The
     COR may not delegate authority to make any commitments or changes that affect
     price, quality, quantity, delivery, or other terms and conditions of the contract.

     As stated earlier, the Southwest Acquisition Branch contracting officer delegated
     the entire contractor selection process to the COR, including the decision on
     which multiple-award contractor would receive awards of individual purchases of
     goods and services. We believe that the contracting officer delegated too much
     authority to the COR. The following example obtained from an e-mail developed
     by a JITC COR describes how the decision was made to select a particular
     multiple-award contractor for the award of a particular requirement. The e-mail
     states:
            I have awarded the [requirement] competitive TEP [technical
            evaluation proposal] to [contractor]. There were three possible
            choices. I based my decision on my previous flying experience and my
            technical enlisted background. 1) Technical Approach: [contractor]
            had a defined and logical approach to the testing and certification
            process that clearly described their methodology. 2) Experience:
            [contractor] showed a superior background in aviation,
            communications, and Naval platform interoperability certification.

     In a recent command assessment of JITC, a team of DISA subject matter experts,
     including the DISA Office of Inspector General, also determined that the
     contracting officer had delegated too much authority to the COR. In a
     memorandum responding to the DISA report, the Southwest Acquisition Branch
     disagreed that the contracting officer’s authority had been improperly delegated.



                                            69
Contributing Factors
    Southwest Acquisition Branch contracting officials’ decision to not administer the
    omnibus multiple-award contracts as indefinite-delivery, indefinite-quantity
    contracts and their decision to not make individual purchases through the use of
    funded delivery and task orders resulted in the problems identified. Even though
    Southwest Acquisition Branch contracting officials awarded the omnibus
    multiple-award contracts as indefinite-delivery, indefinite-quantity contracts, they
    did not consider them indefinite-delivery, indefinite-quantity contracts.
    According to documentation in the contract file:
           These are “C” contracts, as the government did not consider the
           contract a true IDIQ contract with task and/or delivery orders. The
           Contracting Officer Representative is issuing Letters of Instruction
           (LOI) that are not considered Delivery Orders or Task Orders.

    Other documentation states:
           It is noted that the contract is a “C” contract and the entire SOW is
           described in the contract. All funds are obligated by the contracting
           officer at the contract level. The COR has absolutely no authority to
           obligate funds on the contract.

    Finally, other documentation states that:
           LOIs [letters of instruction] do not constitute “contracts” in themselves
           because they do not obligate money on the contract and do not effect
           changes in price, quality, quantity, delivery, or other terms and
           conditions of the contract.

    This information along with contracting officers not making fair opportunity and
    price reasonableness determinations for individual purchases raises the question
    as to whether the requirements were suitable for a multiple-award arrangement in
    the first place. Southwest Acquisition Branch contracting officers should have
    treated the letters of instruction as orders, obligated funds for individual purchases
    at the order level, and followed the procedures contained in FAR 16.505(b)(1).
    Had contracting officials done this, the problems we identified may not have
    occurred. The Southwest Acquisition Branch approach for making purchases
    under the omnibus multiple-award contracts does not promote fair opportunity
    and the spirit of the multiple-award process.


Conclusion
    The Southwest Acquisition Branch contracting officials’ approach for awarding
    individual purchases under the omnibus multiple-award contracts has resulted in
    approximately $411 million of the overall $1 billion estimated value being
    awarded with no contracting officer involvement in the contractor selection
    process, no contracting officer fair opportunity analyses, and no contracting
    officer price reasonableness



                                             70
Recommendations, Management Comments, and Audit
  Response
    E. We recommend that the Director, Defense Information Systems Agency:

           1. Appoint a resident contracting officer at Fort Huachuca, Arizona;
    and

            2. Appoint a Defense Information Systems Agency contracting officer
    to review the duties performed by contracting officer’s representatives
    assigned to the Joint Interoperability Test Command multiple-award
    contracts. The review should focus on whether Southwest Acquisition
    Branch contracting officers delegated too much authority to the contracting
    officer’s representatives.

    Defense Information Systems Agency Comments. The Director for
    Procurement, Defense Information Technology Contracting Organization,
    provided comments on behalf of the Director, Defense Information Systems
    Agency. He concurred with Recommendations E.1. and E.2. Regarding
    Recommendation E.1., the Director stated that the head of the contracting activity
    for DISA, who was in charge of the Procurement Directorate of the Defense
    Information Technology Contracting Organization, is creating a contracting
    branch at JITC at Fort Huachuca. The contracting branch will consist of a
    GS-1102-14 contracting officer, one GS-1102-13 contracting officer, and one
    GS-1102-11/12 contract specialist. The DISA head of the contracting activity
    will be a part of the chain of command for those employees. The Director
    anticipated that these individuals would report for duty by the end of January
    2007.

    Regarding Recommendation E.2., the Director stated that DISA had performed a
    review and concluded that DOI contracting officers had delegated too much
    authority to the JITC contracting officer’s representatives. The Director stated
    that a September 2005 review by the DISA Inspector General, which included
    two staff members from the Procurement Directorate Defense Information
    Technology Contracting Organization, had reached the same conclusions.
    Additionally, DISA legal opinions on this issue concluded that “a Contracting
    Officer’s Representative (COR) does not have authority to award task orders nor
    may CORs be delegated such authority.” This legal opinion was based on
    regulations (FAR 1.601, DFARS 201.602-2, and Defense Acquisition Regulation
    Supplement 1.602-2-90).

    Audit Response. The Director’s comments are responsive to Recommendations
    E.1. and E.2.




                                        71
Appendix A. Scope and Methodology
    We performed this audit jointly with the Department of the Interior Inspector
    General from August 2005 through August 2006 in accordance with section 811
    of the National Defense Authorization Act for 2006. We reviewed 49 DOI
    contract actions awarded during FY 2005 for purchases valued at $277.1 million.
    The 49 contracts from which the contract actions were awarded had an estimated
    value of $2.9 billion.

    We reviewed two DOI sites that award contracts for DoD: GovWorks, located in
    Herndon, Virginia, and the Southwest Acquisition Branch, located at Fort
    Huachuca, Arizona. For each site, we judgmentally selected contracts or contract
    actions awarded during FY 2005. Our audit primarily focused on the following
    six areas of review.

           Bona Fide Need. We determined whether the DoD requiring activity had
    a bona fide needs for the requirement included on MIPRs sent to DOI.
    Specifically, we determined whether the need was for the fiscal year of the
    appropriation used to finance the requirement.

           Market Research. We determined whether DoD had a legitimate need to
    use DOI to make purchases of low-dollar military equipment, the use of DOI to
    purchase products and services from the GSA Federal supply schedules, and the
    use of DOI to purchase items from existing DoD contracts.

           Competition. We determined whether DOI adequately competed DoD
    purchases according to FAR and DFARS. We reviewed orders issued under
    multiple-award contracts, orders and BPAs issued under GSA Federal supply
    schedules, and awards made to Section 8(a) contractors.

            Price Reasonableness Determinations. We determined whether DOI
    contracting officers adequately documented that the prices paid for DoD goods
    and services were fair and reasonable. We reviewed documentation DOI
    contracting organizations maintained to support DoD purchases made. The
    documentation reviewed included MIPRs, MIPR acceptances, statements of work,
    price negotiation memorandums, technical evaluations, independent Government
    estimates, legal reviews, and determination and findings documents.

           Monitoring Contractor Performance. We reviewed the 24 contracts
    awarded for services and determined whether DOI contracting officers officially
    designated contracting officer’s representatives in writing and whether QASPs
    were prepared in order to specify all work requiring surveillance and the method
    of surveillance.

    Use of Computer-Processed Data. The audit relied on data from the General
    Services Administration Federal Procurement Data System—Next Generation
    (FPDS-NG), the GovWorks Business Information System, and the National
    Business Center, Southwest Acquisition Branch, business activity data to identify
    contracts for review. Although we did not perform detailed testing of the data
    from these systems, we did not identify significant errors in the data.




                                       72
        FPDS-NG. On September 27, 2005, the Government Accountability
Office (GAO) sent a memorandum to the Director, Office of Management and
Budget, called “Improvements Needed to the Federal Procurement Data System-
Next Generation.” The memorandum stated:
       Based on our review, we have concerns regarding whether the new
       system has achieved the intended improvements in the areas of
       timeliness and accuracy of data, as well as ease of use and access to
       data. We also are concerned as to whether the FPDS-NG system has
       the flexibility to capture data on interagency contracting transactions.
       Completion of the FPDS-NG transition provides an opportunity for
       assessing the implementation of the system to date and for considering
       needed adjustments as the contractor begins its next period of
       performance. We are recommending actions to help achieve the
       intended improvements for FPDS-NG, which should be considered as
       part of that assessment.

Despite the GAO concerns on accuracy of the FPDS-NG system, we relied on the
data to identify contracting orders that had been fulfilled by DOI through DoD
contracts and contracts let by other Federal agencies because we believed that the
FPDS-NG was the best available source for that information.

        GovWorks Business Information System. The audit relied on data from
the GovWorks Business Information System to identify orders for our review and
identify MIPRs that were still open. The system had automated links to source
documents contained in an Adobe Acrobat ™ file format. The information
contained in the system generally agreed with information on the supporting
documents and selected contract files. One exception was information on DoD
appropriation symbols, which we found to have about a 12.5 percent error rate.
We discuss this error and its effect on the audit in finding B.

       Southwest Acquisition Branch, Interior Department Electronic
Acquisition System Procurement Desktop. We used data from the Interior
Department Electronic Acquisition System Procurement Desktop. We did not
discover any errors in the system that would effect our audit conclusions.

Use of Technical Assistance. Computer engineers from the DoD IG Information
Technology Branch, Technical Assessment Directorate, reviewed the System
Security Authorization Agreement for the Open Market Corridor to determine
whether the contractor to the Naval Postgraduate School properly assessed the
system’s risk level. The GSA Director, Leasing Policy and Performance Division
performed independent appraisals of the Counterintelligence Field Activity lease
with TKC Communications to determine whether the Government paid a fair
price for the lease. We relied on advice from our General Counsel on
interpretations of appropriation law and other matters.

Government Accountability Office High-Risk Area. The Government
Accountability Office has identified several high-risk areas in DoD. This report
provides coverage of the Contract Management, Interagency Contracting, and
Weapons System Acquisition high-risk areas.




                                         73
Appendix B. Prior Coverage
    During the last 5 years, the Government Accountability Office (GAO), the
    Department of Defense Inspector General (DoD IG), the Army Audit Agency, the
    Air Force Audit Agency, and the DOI Inspector General (DOI IG) issued 24
    reports relating to interagency contracting and military interdepartmental
    purchases. Unrestricted GAO reports can be accessed over the Internet at
    http://www.gao.gov. Unrestricted DoD IG reports can be accessed at
    http://www.dodig.mil/audit/reports. Unrestricted DOI IG reports can be accessed
    at http://www.doi.oig.gov.

GAO
    GAO Report No. GAO-06-996, “Interagency Contracting Improved Guidance,
    Planning, and Oversight Would Enable the Department of Homeland Security to
    Address Risks,” September 2006

    GAO Report No. GAO-05-456, “Interagency Contracting Franchise Funds
    Provide Convenience, but Value to DoD is not Demonstrated,” July 2005

    GAO Report No. GAO-05-201, “Interagency Contracting Problems with DoD’s
    and Interior’s Orders to Support Military Operations,” April 2005

    GAO Report No. GAO-05-274, “Contract Management: Opportunities to
    Improve Surveillance on Department of Defense Service Contracts,” March 2005

    GAO Report No. GAO-05-207, “High-Risk Series: An update,” January 2005

    GAO Report No. GAO-03-1069, “Budget Issues: Franchise Fund Pilot Review,”
    August 2003

    GAO Report No. GAO-02-734, “Contract Management: Interagency Contract
    Program Fees Need More Oversight,” July 2002

DoD IG
    DoD IG Report No. D-2007-042, “Potential Antideficiency Act Violations on
    DoD Purchases Made Through Non-DoD Agencies,” January 2, 2007

    DoD IG Report No. D-2007-032, “FY 2005 DoD Purchases Made Through the
    Department of Treasury,” December 8, 2006

    DoD IG Report No. D-2007-023, “FY 2005 DoD Purchases Made Through the
    National Aeronautics and Space Administration,” November 13, 2006

    DoD IG Report No. D-2007-007, “FY 2005 DoD Purchases Made Through the
    General Services Administration,” October 30, 2006




                                      74
    DoD IG Report No. D-2005-096, “DoD Purchases Made Through the General
    Services Administration,” July 29, 2005

    DoD IG Report No. D-2003-090, “Use and Control of Military Interdepartmental
    Purchase Requests at the Air Force Pentagon Communications Agency,” May 13,
    2003

    DoD IG Report No. D-2002-110, “Policies and Procedures for Military
    Interdepartmental Purchase Requests at Washington Headquarters Services,”
    June 19, 2002

    DoD IG Report No. D-2002-109, “Army Claims Service Military
    Interdepartmental Purchase Requests,” June 19, 2002

Army Audit Agency
    Army Audit Agency Report No. A-2002-0536-IMU, “Military Interdepartmental
    Purchase Requests, Logistics Assistance Group Europe,” August 21, 2002


Air Force Audit Agency
    Air Force Audit Agency Report No. F2005-0006-FBP000, “General Services
    Administration Military Interdepartmental Purchase Request, 353d Special
    Operations Group, Kadena AB, Japan,” November 10, 2004

    Air Force Audit Agency Report No. F2004-0046-FBP000, “General Services
    Administration Military Interdepartmental Purchase Request, 390th Intelligence
    Squadron, Kadena AB, Japan,” August 11, 2004

DOI IG
    KPMG, under contract with the DOI IG, Report No. E-IN-MMS-0006-2005,
    “Independent Auditors' Report on the Minerals Management Service’s Financial
    Statements for Fiscal Years 2004 and 2003,” March 3, 2005

    KPMG, under contract with the DOI IG, Report No. E-IN-DMO-0058-2004,
    “Independent Auditors’ Report on the Departmental Offices’ Financial
    Statements for Fiscal Years 2004 and 2003,” December 6, 2004

    DOI IG Report No. W-EV-OSS-0075-2004, “Review of 12 Procurements Placed
    Under General Services Administration Federal Supply Schedules 70 and 871 by
    the National Business Center,” DOI Assignment, July 16, 2004

    KPMG, under contract with the DOI IG, Report No. E-IN-MMS-0066-2003,
    “Independent Auditors’ Report on the Minerals Management Service’s Financial
    Statements for Fiscal Years 2003 and 2002,” December 9, 2003




                                       75
KPMG, under contract with the DOI IG, Report No. 2003-I-0038, “Independent
Auditors’ Report on the Interior Franchise Fund’s Financial Statements for Fiscal
Years 2002 and 2001,” March 21, 2003

DOI IG Report No. 2002-I-0050, “GovWorks Gainsharing Program and Recovery
of Costs Related to the Interior Franchise Fund Minerals Management Service,”
September 2002




                                   76
Appendix F. Potential Antideficiency Act
            Violations

GovWorks
    1. DOI Contract 41181. A potential bona fide needs rule violation occurred
    when a GovWorks contracting officer awarded contract 41181 to purchase
    decision agent network equipment for the Pentagon Telecommunications Service
    Center. The value of the contract was $108,196.00. A potential bona fide needs
    rule violation occurred because the contract, awarded on December 21, 2004, was
    funded with three FY 2001 Army O&M MIPRs that expired on September 30,
    2001, and one FY 2004 Army O&M MIPR that expired on September 30, 2004.
    The equipment consisted of commercial items and there was no evidence that a
    long lead-time was required to purchase these items, that the items were needed to
    replenish the inventory, or that there was an unforeseen delay in purchasing these
    items. Use of FY 2001 and FY 2004 Army O&M funds to satisfy FY 2005
    requirements does not meet the intent of the bona fide needs rule. Table F-1
    identifies the MIPRs initially used to fund contract 41181.

              Table F-1. MIPRs Used to Initially Fund DOI Contract 41181
        MIPR Number        MIPR          MIPR Date            Description of Acquisition on
                           Amount                             MIPR
                           Used
     MIPR1MINTPR070         $ 6,831.30   September 14, 2001   “FUNDS ARE PROVIDED FOR
                                                              THE ACQUISITION OF ADP
                                                              AND SUPPLIES THROUGH
                                                              THE PENTAGON IT STORE”
     MIPR1JDIT0N046          26,399.03   July 10, 2001        “Funds are provided for the
                                                              acquisition of toner cartridges
                                                              through the Pentagon IT Store for
                                                              supply”
     MIPR1KINTWS058          38,803.30   July 24, 2001        “FUNDS ARE PROVIDED FOR
                                                              THE ACQUISITION OF ADP
                                                              AND SUPPLY THROUGH THE
                                                              PENTAGON IT STORE”
     MIPR4MINTMM125          36,162.37   September 17, 2004   “The purpose of this MIPR Is to
                                                              provide funds for equipment
                                                              through the Pentagon IT Store”
      Total                $108,196.00

    2. Modification 0001. A potential bona fide needs rule violation occurred when
    a GovWorks contracting officer issued modification 0001 to contract 41181 on
    January 18, 2005. Under modification 0001, the contracting officer removed
    $26,399.03 from one of the original Army O&M MIPRs used to fund
    contract 41181, MIPR1JDIT0N046, dated July 10, 2001, and replaced it with
    funds from four other expired Army O&M MIPRs: one FY 2000 MIPR, one
    FY 2001 MIPR, and two FY 2004 MIPRs. Use of FY 2000, FY 2001, and
    FY 2004 Army O&M funds to satisfy FY 2005 requirements does not meet the
                                         89
intent of the bona fide needs rule. Table F-2 identifies the four Army O&M
MIPRs that replaced Army O&M MIPR1JDIT0N046.

      Table F-2. Additional MIPRs Used to Fund DOI Contract 41181

    MIPR Number       MIPR            MIPR Date            Description of Acquisition
                      Amount                               on MIPR
                      Used
 MIPR0MGSAIT092       $     160.00    September 29, 2000   “Funds are provided for the
                                                           acquisition of ADP products
                                                           and services through the
                                                           Pentagon IT Store, Under
                                                           Project Number DOI84011”
 MIPR1MITST0074            3,176.76   September 24, 2001   “FUNDS ARE PROVIDED
                                                           FOR THE ACQUISITION
                                                           OF ADP AND SUPPLIES
                                                           THROUGH THE
                                                           PENTAGON IT STORE
                                                           PROJECT ID0184880”
 MIPR4LINTMM111           11,393.50   August 18, 2004      “The purpose of this MIPR
                                                           is to provide funds for
                                                           equipment through the
                                                           Pentagon IT Store”
 MIPR4MINTMM130           11,668.77   September 24, 2004   “THE PURPOSE OF THIS
                                                           MIPR IS TO PROVIDE
                                                           FUNDS FOR THE
                                                           PURCHASE OF DMS
                                                           EQUIPMENT THROUGH
                                                           THE PENTAGON IT
                                                           STORE”
  Total                $26,399.03

3. DOI Contract 40966. A potential bona fide needs rule violation occurred
when a GovWorks contracting officer awarded contract 40966 to purchase 71
computer servers for the Pentagon Telecommunications Service Center. The
value of the contract was $521,679.38. A potential bona fide needs rule violation
occurred because contract 40966, awarded on November 30, 2004, was funded
with MIPR4MINIMM125, using FY 2004 Army O&M funds that expired on
September 30, 2004. The computer servers were commercial items and there was
no evidence that a long lead-time was required to purchase these items, that the
items were needed to replenish the inventory, or that there was an unforeseen
delay in purchasing these items. Use of FY 2004 Army O&M funds to satisfy
FY 2005 requirements does not meet the intent of the bona fide needs rule.

4. DOI Contract 41063. A potential bona fide needs rule violation occurred
when a GovWorks contracting officer awarded contract 41063 to purchase an
IBM Server Warranty for the Pentagon Telecommunications Service Center. The
value of the contract was $3,840.00. A potential bona fide needs rule violation
occurred because contract 41063, awarded on November 24, 2004, was funded
with O&M funds and Other Procurement that had already expired. Two of the
MIPRs cited FY 2002 Army O&M funds that expired on September 30, 2002.

                                      90
One of the MIPRs cited FY 2004 Army O&M funds that expired on
September 30, 2004. One of the MIPRs cited FY 2002 other procurement funds
that expired on September 30, 2004. Use of FY 2002 and FY 2004 Army O&M
funds and FY 2002 Other Procurement funds that expired on September 30, 2004
to satisfy FY 2005 requirements does not meet the intent of the bona fide needs
rule. Table F-3 identifies the four MIPRs used to fund contract 41063.

            Table F-3. MIPRs Used to Fund DOI Contract 41063

     MIPR Number        MIPR             Appropriation      MIPR Date
                        Amount Used
 MIPR2MINTMM077              $1,428.57   FY 02 Army O&M     September 4, 2002
 MIPR2MINTMM081                158.20    FY 02 Army O&M     September 23, 2002
 MIPR4BINTMM012               1,382.79   FY 04 Army O&M     November 19, 2003
 MIPR2LINTMM075                870.44    FY 02 Army Other   August 9, 2002
                                         Procurement
  Total                      $3,840.00

5. DOI Contract 41432. A potential bona fide needs rule violation occurred
when a GovWorks contracting officer awarded contract 41432 to purchase three
42-inch high-definition plasma televisions for the Pentagon Telecommunications
Service Center. The value of the contract was $7,476.00. A potential bona fide
needs rule violation occurred because contract 41432, awarded on February 8,
2005, was funded with MIPR4MINTMM130, using FY 2004 Army O&M funds
that expired on September 30, 2004. The equipment consisted of commercial
items and there was no evidence that a long lead-time was required to purchase
these items, that the items were needed to replenish the inventory, or that there
was an unforeseen delay in purchasing these items. Use of FY 2004 O&M funds
to satisfy FY 2005 requirements does not meet the intent of the bona fide needs
rule.

6. DOI Contract 1435-04-02-CT-85531/Order 43387. A potential bona fide
needs rule violation occurred for 14 of 17 MIPRs used to fund multiple-award
order 43387, on June 30, 2005, to purchase technical and functional support
services for the Pentagon Telecommunications Service Center. The value of
order 43387 was $3,908,420.00 and the period of performance was from July 1,
2005, through December 31, 2005. The appropriation codes on these MIPRs
show that FY 2003 O&M funds were cited for one of the MIPRs, FY 2004 O&M
funds were cited for 13 of the MIPRs, and FY 2005 O&M funds were cited for 3
of the MIPRs. MIPRs 1 through 13 that we questioned are identified in Table F-
4.




                                    91
              Table F-4. MIPRs Used to Fund DOI Order 43387
      MIPR Number          MIPR             Type of     MIPR       MIPR          Availability
                           Amount Used      Funds       Date       Acceptance    of Funds
                                                                   Date
 1) MIPR3LINTMM101          $1,038,376.96   FY 03       8/29/03    8/29/03       8/29/04
                                            O&M
 2) MIPR4GINTMM058             70,000.00    FY 04       4/23/04    4/26/04       4/26/05
                                            O&M
 3) MIPR4GINTMM059             25,680.01    FY 04       4/23/04    4/26/04       4/26/05
                                            O&M
 4) MIPR4HINTMM069            146,090.92    FY 04       5/26/04    5/26/04       5/26/05
                                            O&M
 5) MIPR4JINTMM072                516.00    FY 04       6/4/04     6/7/04        6/7/05
                                            O&M
 6) MIPR4JINTMM080             28,000.00    FY 04       6/22/04    6/24/04       6/24/05
                                            O&M
 7) MIPR4JINTMM086               9,033.00   FY 04       6/25/04    6/28/04       6/28/05
                                            O&M
 8) MIPR4JINTMM089             34,000.00    FY 04       6/25/04    6/28/04       6/28/05
                                            O&M
 9) MIPR4KINTMM093            140,100.00    FY 04       7/08/04    7/9/04        7/9/05
                                            O&M
 10) MIPR4KINTMM095              3,500.00   FY 04       7/16/04    7/16/04       7/16/05
                                            O&M
 11) MIPR4KINTMM096            66,500.00    FY 04       7/16/04    7/16/04       7/16/05
                                            O&M
 12) MIPR4LINTMM115           147,000.00    FY 04       8/31/04    8/31/04       8/31/05
                                            O&M
 13) MIPR4MINTMM123           570,000.00    FY 04       9/9/04     9/10/04       9/10/05
                                            O&M
 14) MIPR4MINTMM129           119,733.76    FY 04       9/24/04    9/24/04       9/24/05
                                            O&M
 15) MIPR5BINTMM005            84,000.00    FY 05       11/9/04    11/10/04      11/10/05
                                            O&M
 16) MIPR5CINTMM013          1,375,000.00   FY 05       12/13/04   12/15/04      12/15/05
                                            O&M
 17) MIPR5HINTMM058            50,918.00    FY 05       5/25/05    5/26/05       5/26/06
                                            O&M
  Total                    $3,908,448.65


A potential bona fide needs rule violation occurred related to MIPR number 1
because the funds expired on September 30, 2003, but were used to partially fund
order 43387 awarded on June 30, 2005. Potential bona fide needs rule violations
occurred for MIPRs number 2 through number 8 because the GovWorks
contracting officer also used them beyond their period of availability to partially
fund order 43387. A potential bona fide needs rule violation occurred for MIPRs

                                     92
number 9 through 14 due to the unusually long period between the MIPR
acceptance dates and the contract award date. Use of FYs 2003 and 2004 O&M
funds to satisfy FY 2005 requirements does not meet the intent of the bona fide
needs rule.

7. DOI Contract 1435-04-02-CT-85531/Order 41160. A potential bona fide
needs rule and purpose violation occurred when a GovWorks contracting officer
awarded contract 41160, a multiple-award order, on December 30, 2004, to
purchase a transitional enhanced communications gateway system and associated
installation and support for the Pentagon Telecommunications Service Center.
The value of the contract was $555,738.00. The delivery of the system was no
later than 120 days from the date of contract 41160, December 30, 2004. A
GovWorks contracting officer used funds from five MIPRs, totaling $555,738.00,
to fund the contract. The appropriation codes on these MIPRs show that FY 2003
Army O&M funds were cited on three of these MIPRs, FY 2002 Army other
procurement funds were cited for one of the MIPRs, and FY 2003 Army other
procurement funds were cited on one of the MIPRs. Table F-5 identifies the five
MIPRs used to fund contract 41160. The MIPRs that we questioned are
italicized.

            Table F-5. MIPRs Used to Fund DOI Contract 41160

 MIPR Number            MIPR            Appropriation      MIPR      MIPR
                        Amount                             Date      Acceptanc
                        Used                                         e Date
 MIPR3MINTMM113          $120,000.00    FY 03 Army O&M     9/24/03   9/24/03
 MIPR3MINTMM112           120,000.00    FY 03 Army O&M     9/24/03   9/24/03
 MIPR3MINTMM114           200,000.00    FY 03 Army O&M     9/25/03   9/25/03
 MIPR-2-F-D0IIT-045        95,709.55    FY 02 Army Other   3/15/02   3/22/02
                                        Procurement
 MIPR3HINTMM058            20,028.45    FY 03 Army Other   5/21/03   5/22/03
                                        Procurement
  Total                  $555,738.00

A potential bona fide needs rule violation occurred because the contracting officer
used funds from three Army O&M MIPRs that expired on September 30, 2003,
and funds from one FY 2002 Other Procurement Fund MIPR that expired on
September 30, 2004, to fund order 41160, awarded on December 30, 2004. There
was no bona fide need in FY 2003 for the funds in the FY 2003 Army O&M
MIPRs used to partially fund contract 41160 awarded in FY 2005. The
GovWorks contracting officer did not use the funds until December 30, 2004,
which was 15 months after the issuance dates of the three O&M MIPRs. Use of
FY 2003 O&M funds to satisfy FY 2005 requirements does not meet the intent of
the bona fide needs rule.

A potential violation of the purpose statute also occurred under contract 41160.
According to information in the contract file, $492,791 of the $555,739 contract
value was related to equipment; however, the contracting officer only obligated
$115,738.00 of other procurement funds under two MIPRs to fund the equipment
portion of the purchase. The remaining $377,053.20 of equipment was therefore
funded with the O&M funds used to fund contract 41160.

                                       93
Two other procurement fund MIPRs contained incorrect information. For
example, other procurement funds were used for MIPR-2-F-D0IIT-045, issued on
March 15, 2002. Information in MIPR-2-F-D0IIT-045 states that the funds expire
on September 30, 2002. Other procurement funds are 3-year funds and
accordingly would not expire until September 30, 2005. Other procurement funds
were also used on MIPR3HINTMM058 issued on May 21, 2003. Information in
MIPR3HINTMM058 states that the funds expire on September 30, 2003. Again,
other procurement funds are 3-year funds and would not expire until
September 30, 2006.

8. DOI Contract 44435. A potential bona fide needs rule violation occurred
when a GovWorks contracting officer awarded contract 44435 to purchase 40
laser jet printers for the Pentagon Telecommunications Service Center. The value
of the contract was $37,643.10. A potential bona fide needs rule violation
occurred because the contract, awarded on August 29, 2005, was funded with
MIPR4GINTMM054, using FY 2004 Army O&M funds that expired on
September 30, 2004. The equipment consisted of commercial items and there was
no evidence that a long lead-time was required to purchase these items, that the
items were needed to replenish the inventory, or that there was an unforeseen
delay in purchasing these items. The delivery date for these items was 30 days
after the date of the order. Use of FY 2004 Army O&M funds to satisfy FY 2005
requirements does not meet the intent of the bona fide needs rule.

9. DOI Contract 41242. A potential bona fide needs rule violation occurred
when a GovWorks contracting officer awarded contract 41242 on December 10,
2004, to purchase 75 Microsoft Windows server enterprise 2003 software licenses
for the Pentagon Telecommunications Service Center. The value of the contract
was $113,388.00. A potential bona fide needs rule violation occurred because the
contracting officer used FY 2004 Army O&M funds from MIPR4MINTMM125
that expired on September 30, 2004, to fund the contract. The equipment
consisted of commercial items and there was no evidence that a long lead-time
was required to purchase these items, that the items were needed to replenish the
inventory, or that there was an unforeseen delay in purchasing these items. Use
of FY 2004 Army O&M funds to satisfy FY 2005 requirements does not meet the
intent of the bona fide needs rule.

10. DOI Blanket Purchase Agreement 40699 (Task Order 41801
Modification 0002). A potential bona fide needs rule violation occurred when a
GovWorks contracting officer issued modification 0002 under the task order on
May 5, 2005. The purpose of modification 0002 was to add incremental funding
of $920,970.87 to purchase services related to the U.S. Air Force Horned Owl
Program for the Army Program Management Office for Airborne Reconnaissance
Low. DOI contracting officials used a portion of the funds from two existing
MIPRs to fund modification 0002. MIPR4DINT04166 was signed on January 10,
2004, and accepted on January 15, 2004. A potential bona fide needs rule
violation occurred because of the unusually long period between the January 15,
2004, MIPR acceptance date and the May 5, 2005, date that the funds were
obligated under modification 0002. Use of FY 2004 O&M funds to satisfy
FY 2005 requirements does not meet the intent of the bona fide needs rule.

11. DOI Contract 43852. A potential bona fide needs rule violation occurred
when a GovWorks contracting officer awarded contract 43852 on July 31, 2005,
to purchase services for the Army Training Support Center. The services related
to a training ammunition calculator used to calculate ammunition requirements
                                   94
for training purposes at Army locations. The value of the contract was
$94,075.78. Contracting officials used funds from MIPR4KBELG3066 issued on
July 12, 2004, and accepted on July 15, 2004. The period of performance was
from July 31, 2005, until 3 months after receipt of order, or October 31, 2005. A
potential bona fide needs rule violation occurred because the GovWorks
contracting officer used FY 2004 Army O&M funds after their period of
availability. The MIPR was accepted July 15, 2004 and had a 12-month period of
availability that ended on July 15, 2005. Also, a potential bona fide needs rule
violation occurred because of the unusually long period between the July 15,
2004, MIPR acceptance date and the July 31, 2005, contract award date. Use of
FY 2004 Army O&M funds to satisfy FY 2005 requirements does not meet the
intent of the bona fide needs rule.

12. DOI Contract 40385. A potential bona fide needs rule violation occurred
when a GovWorks contracting officer awarded contract 40385 on October 15,
2004, to purchase 226 weapons cleaning kits for Naval Sea Systems Command
(NAVSEA) Fleet Anti-Terrorism Force Protection. The value of the contract was
$3,390.00. A potential bona fide needs rule violation occurred because the
contract was funded with MIPR N6553804MP00018, citing FY 2004 Navy O&M
funds that expired on September 30, 2004. There was no evidence that a long
lead-time was required to purchase these items, that the items were needed to
replenish the inventory, or that there was an unforeseen delay in purchasing these
items. The items were scheduled to be delivered by November 26, 2004. Use of
FY 2004 Navy O&M funds to satisfy FY 2005 requirements does not meet the
intent of the bona fide needs rule.

13. DOI Contract 43270. A potential bona fide needs rule violation occurred
when a GovWorks contracting officer awarded contract 43270 on May 20, 2005,
to purchase 50 sets of T1 special body armor and 100 gamma plates for NAVSEA
Fleet Anti-Terrorism Force Protection, valued at $61,112.00. A potential
violation occurred because contract 43270 awarded on May 20, 2005, was funded
with MIPR N6553804MP00018, citing FY 2004 Navy O&M funds that expired
on September 30, 2004. There was no evidence that a long lead-time was
required to purchase these items or that there was an unforeseen delay in
purchasing these items since the items were to be delivered by June 17, 2005.
While there was evidence that the purpose of contract 43270 was to replenish
inventory, the evidence was not convincing. Documentation in the contract files
stated that the “subject order is to replenish current stock that is distributed to
various units.” However, we question the use of FY 2004 Navy O&M funds that
expired on September 30, 2004, to fund this purchase made almost 8 months after
the end of FY 2004. Use of FY 2004 Navy O&M funds to satisfy FY 2005
requirements does not meet the intent of the bona fide needs rule.

14. DOI Contract 40387. A potential bona fide needs rule violation occurred
when a GovWorks contracting officer awarded contract 40387 on October 17,
2004, to purchase 226 pairs of gloves and goggles, valued at $10,170.00, for
NAVSEA Fleet Anti-Terrorism Force Protection. A potential violation occurred
because the contract was funded with MIPR N6553804MP00018, citing FY 2004
Navy O&M funds that expired on September 30, 2004. There was no evidence
that the items were needed to replenish the inventory, that a long lead-time was
required to purchase these items, or that there was an unforeseen delay in
purchasing these items. The items were scheduled to be delivered by
November 26, 2004. Use of FY 2004 Navy O&M funds to satisfy FY 2005
requirements does not meet the intent of the bona fide needs rule.
                                    95
15. DOI Contract 43280. A potential bona fide needs rule violation occurred
when a GovWorks contracting awarded contract 43280 to purchase 15 pairs of
goggles and 15 balaclavas, valued at $1,328.01, for NAVSEA Fleet
Anti-Terrorism Force Protection. A potential violation occurred because the
contract, awarded on May 17, 2005, was funded with MIPRN6553804MP00018,
citing FY 2004 Navy O&M funds that expired on September 30, 2004. There
was no evidence that the items were needed to replenish the inventory, that a long
lead-time was required to purchase these items, or that there was an unforeseen
delay in purchasing these items. The items were scheduled to be delivered by
November 26, 2004. Use of FY 2004 Navy O&M funds to satisfy FY 2005
requirements does not meet the intent of the bona fide needs rule.

16. DOI Contract 41907. A potential bona fide needs rule violation occurred
when a GovWorks contracting officer awarded contract 41907 to purchase 132
radio pouches, valued at $3,168.00, for NAVSEA Fleet Anti-Terrorism Force
Protection. A potential violation occurred because the contract, awarded on
January 24, 2005, was funded with MIPR N6553804MP00018, citing Navy
FY 2004 O&M funds that expired on September 30, 2004. There was no
evidence that the items were needed to replenish the inventory, that a long lead-
time was required to purchase these items, or that there was an unforeseen delay
in purchasing these items. The items were scheduled to be delivered by
February 11, 2005. Use of FY 2004 Navy O&M funds to satisfy FY 2005
requirements does not meet the intent of the bona fide needs rule.

17. DOI Contract 42912. A potential bona fide needs rule violation occurred
when a GovWorks contracting officer awarded contract 42912 to purchase 40
desert camouflage body armor systems, valued at $71,137.60, for NAVSEA
Mobile Security Force Command. A potential violation occurred because the
contract, awarded on April 19, 2005, was funded with MIPR N6553803MP00013,
citing Navy FY 2003 O&M funds that expired on September 30, 2003. The funds
expired 1 year and 7 months before they were used to fund the contract. Use of
FY 2003 O&M funds to satisfy FY 2005 requirements does not meet the intent of
the bona fide needs rule.

18. DOI Contract 43329. A potential bona fide needs rule violation occurred
when a GovWorks contracting officer awarded contract 43329 to purchase 20
pairs of knee pads and 20 pairs of elbow pads, valued at $1,158.60, for NAVSEA
Mobile Security Force Command. A potential violation occurred because the
contract, awarded on May 20, 2005, was funded with MIPR N6553804MP00018,
citing Navy FY 2004 O&M funds that expired on September 30, 2004. There
was no evidence that the items were needed to replenish the inventory, that a long
lead-time was required to purchase these items, or that there was an unforeseen
delay in purchasing these items. The items were scheduled to be delivered by
June 27, 2005. Use of FY 2004 O&M funds to satisfy FY 2005 requirements
does not meet the intent of the bona fide needs rule.

19. DOI Contract 43349. A potential bona fide needs rule violation occurred
when a GovWorks contracting officer awarded contract 43349 to purchase 12 seal
bags, valued at $1,369.00, for NAVSEA Mobile Security Force Command. A
potential violation occurred because the contract, awarded on May 24, 2005, was
funded with MIPR N6553804MP00018, citing Navy FY 2004 O&M funds that
expired on September 30, 2004. There was no evidence that the items were
needed to replenish the inventory, that a long lead-time was required to purchase
these items, or that there was an unforeseen delay in purchasing these items. The
                                    96
items were scheduled to be delivered by June 27, 2005. Use of FY 2004 Navy
O&M funds to satisfy FY 2005 requirements does not meet the intent of the bona
fide needs rule.

20. DOI Blanket Purchase Agreement 32178 (Task Order 73545). A
potential bona fide needs rule violation occurred under task order 73545, awarded
on October 9, 2003, when GovWorks contracting officials used FY 2003 Office
of the Secretary of Defense O&M funds beyond the funds availability of use.
This task order was for technical services related to the development of geospatial
representations of Navy installation boundaries for the Naval Facilities
Engineering Command. The period of performance was from October 1, 2003,
through September 30, 2004. The funds used under NMIPR039209671, dated
August 14, 2003, and accepted on August 18, 2003, were only available for use
for a 12-month period ending August 18, 2004. At least some of the
$1,559,085.08 was used beyond August 18, 2004, because no additional funding
was added to the task order until April 6, 2005. Use of Office of the Secretary of
Defense O&M funds after the funds expire does not meet the intent of the bona
fide needs rule.

21. DOI Contract 1435-04-03-RC-70941 and DOI Contract
1435-04-03-RC-73024. The Counterintelligence Field Activity (CIFA) did not
follow the required procedures for obtaining office space in NCR. Specifically,
its 10-year, $100 million lease was obtained through a Section 8(a) contractor
rather than the General Services Administration as required by statute. As a
result, the lack of authority for CIFA to enter the lease violated a myriad of
statutes including the Antideficiency Act, and circumvented the required
congressional review and approval process. See finding D for the detailed
discussion of lease-related issues. The potential Antideficiency Act violations are
as follows.

        Lack of Authority to Enter the Lease. Title 40 U.S.C 3307 establishes a
Prospectus Threshold Authority of $2.21 million for leases in FY 2003. Only the
General Services Administration is permitted to enter leases in excess of the
threshold. A potential bona fide needs rule violation occurred because the CIFA
lease agreement required lease payments of at least $6.575 million per year for
2004, which was significantly more than the $2.21 million Prospectus Threshold
Authority. Because CIFA did not follow the prescribed procedure for obtaining
lease space, it circumvented required congressional notification and approval
process prescribed in 10 U.S.C. 2662(a)(2), 40 U.S.C. 3307(a), and Federal
Management Regulation 102-73.65.

        Lack of Authority to Make Building Alterations. Title 40 U.S.C. 3307
also establishes a Prospectus Threshold Authority for the construction and
alteration of leased buildings. The prospectus threshold for lease space alterations
in FY 2003 was $1.106 million. A potential bona fide needs rule violation
occurred because CIFA made leased space alterations of $14.7 million under
contract 1435-04-03-RC-70941 during FY 2003 and did not obtain the required
approval from the Senate and House of Representatives. The Prospectus
Threshold Authority for lease space alternations in FY 2004 was $1.1450 million.
A potential bona fide needs rule violation occurred because CIFA made space
alterations of at least $7.9 million under contract 1435-04-03-RC-73024 during
FY 2004 and did not obtain the required approval from the Senate and House of
Representatives.

                                    97
             Potential Violations of the Bona Fide Needs Rule. The TKC
    Communications contract had provisions that permitted CIFA to repay, over the
    life of the lease, the costs for its building alterations incurred during FY 2003. In
    effect, the contractor performed the construction during FY 2003 but permitted
    CIFA to pay for the construction over the duration of the lease. The contract also
    had an amortization schedule showing the interest charges. A potential bona fide
    needs rule violation occurred because CIFA paid the costs of the building
    alterations over the life of the loan instead of paying for the alterations in the
    fiscal year in which they occurred. Additionally, the terms of the contract created
    a liability to the Government before Congress had appropriated the funds. This
    contract potentially violated 31 U.S.C. 341(a)(1)(A) and the U.S. Constitution,
    Article 1, Section 9, clause 7. Similarly, the contracting clause for termination of
    the lease required payment of any remaining balance on the building alteration
    loan and payment of rent for the next 12 months. This contract provision also
    potentially violated 31 U.S.C 1341(a)(1)(A) and the U.S. Constitution, Article 1,
    Section 9, clause 7.

            Potential Violation of Purpose Statute. CIFA paid for its building
    alterations using O&M funds. Military construction funds should have been used
    and the failure to use these funds potentially violated 31 U.S.C. 1301 and
    10 U.S.C. 2805.

Southwest Acquisition Branch
    22. Others. A potential bona fide needs rule violation occurred for five orders
    issued by Southwest Acquisition Branch contracting officials under
    contract NBCHD020037. The five orders purchased equipment for the DoD
    Office of Inspector General (DoD OIG). Southwest Acquisition Branch
    contracting officials awarded the five orders between September 25 and
    September 29, 2005. For four of the orders, the DoD OIG did not receive the
    items until FY 2006, thus creating a potential bona fide needs rule violation. For
    the other order, we were unable to determine the date items were received;
    however, it is likely that they were not received until FY 2006 because the
    contract was awarded 5 days before the end of the fiscal year. There was no
    evidence that the items were needed to replenish the inventory, that a long lead-
    time was required to purchase these items, or that there was an unforeseen delay
    in purchasing these items. Table F-6 identifies the five orders that potentially
    violated the bona fide needs rule. Use of FY 2005 funds to satisfy FY 2006
    requirements does not meet the intent of the bona fide needs rule.




                                         98
          Table F-6. Potential DoD OIG Antideficiency Act Violations
         Under Southwest Acquisition Branch Contract NBCHD020037

 Order    MIPR         Date         Item           Order      Date Received
Number    Date        Awarded    Description      Amount
1681     9/15/2005   9/29/2005   Laptop        $ 175,032.00    12/16/2005
                                 Computer                      12/21/2005
                                 System                        12/27/2005
1685     9/15/2005   9/25/2005   Desktop        94,909.00       Unknown
                                 Computer
                                 Systems
1687     9/15/2005   9/26/2005   Port           40,776.00      10/14/2005
                                 Replicators
                                 and
                                 Adapters
1688     9/15/2005   9/28/2005   Audio and      54,569.84       12/9/2005
                                 Video
                                 Simulcast
                                 System
1691     9/16/2005   9/28/2005   5JW011         31,436.66      11/10/2005
                                 MetBotz                       11/14/2005
                                 Monitoring
                                 Equipment
 Total                                         $396,723.50




                                     99
Appendix G. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
   Director, Defense Procurement and Acquisition Policy
   Director, Acquisition Resources and Analysis
Under Secretary of Defense (Comptroller)/Chief Financial Officer
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Under Secretary of Defense for Intelligence
   Deputy Under Secretary of Defense (Counterintelligence and Security)
Director, Program Analysis and Evaluation

Department of the Army
Assistant Secretary of the Army (Financial Management and Comptroller)
Auditor General, Department of the Army
Office of the Administrative Assistant to the Secretary of the Army

Department of the Navy
Assistant Secretary of the Navy (Financial Management and Comptroller)
Assistant Secretary of the Navy for Research, Development and Acquisitions
   Deputy Assistant Secretary of the Navy for Acquisition Management
Naval Inspector General
Auditor General, Department of the Navy
Commander, Naval Sea Systems Command
Commander, Naval Supply Systems Command
Commander, Space and Naval Warfare Systems Command
President, Naval Postgraduate School
Assistant General Counsel, Acquisition Integrity Office

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Contract Audit Agency
Director, Defense Finance and Accounting Service
Director, Defense Information Systems Agency
   Joint Interoperability Test Command Office of the Commander
Director, Defense Logistics Agency




                                         100
Other Defense Organizations (cont’d)
Director, Counterintelligence Field Activity
Director, Washington Headquarters Services

Non-Defense Federal Organization
Office of Management and Budget
   Director, Federal Procurement Policy
   Chairman, Acquisition Advisory Panel
Secretary, Department of the Interior
   Deputy Secretary
   Director, Minerals Management Service
   Director, National Business Center
   Assistant Director, GovWorks
   Team Chief, Southwest Acquisition Branch
Administrator, General Services Administration
   Director, Leasing Policy, and Performance Division
   Director, Financial Systems Integration Office
Administrator, Small Business Administration
Inspector General, Small Business Administration
Director, Central Intelligence Agency
Inspector General, Department of the Interior

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Environment and Public Works
Senate Committee on Homeland Security and Governmental Affairs
Senate Committee of Select Committee on Intelligence
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Management, Finance, and Accountability,
  Committee on Government Reform
House Committee on National Security
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform
House Committee on Permanent Select Committee on Intelligence
House Committee on Transportation and Infrastructure




                                          101
Office of the Under Secretary of Defense for
Acquisition, Technology, and Logistics
Comments




                       103
104
105
106
Office of the Under Secretary of Defense
(Comptroller)/Chief Financial Officer
Comments




                       107
108
Office of the Under Secretary of Defense for
Intelligence Comments




                       109
Department of the Navy Comments




                    110
/



          Final Report
           Reference




          Revised




          Revised




    111
112
113
114
115
116
117
118
119
120
121
Department of the Air Force Comments




                     122
Defense Information Systems Agency Comments




                    123
124
125
Counterintelligence Field Activity Comments




                      126
127
128
129
130
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Acquisition and Contract Management, prepared this report. Personnel of the
Department of Defense Office of Inspector General who contributed to the report
are listed below.

Richard B. Jolliffe
Terry L. McKinney
Kent E. Shaw
Robert E. Bender
LaNita C. Matthews
Karen A. Ulatowski
Michael T. Banach
Robert M. Donahoe
John L. Hatton
Charles S. Dekle
Tam T. Phan
Anh H. Tran
Jillisa H. Milner
